<html>
<title> - SEVENTEEN YEARS LATER: WHY IS MORALE AT DHS STILL LOW?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         SEVENTEEN YEARS LATER: WHY IS MORALE AT DHS STILL LOW?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2020

                               __________

                           Serial No. 116-56

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-966 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                              

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                           ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                            
                            
                         C O N T E N T S

                           ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Ms. Angela Bailey, Chief Human Capital Officer, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Chris Currie, Director, Homeland Security and Justice Team, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Max Stier, President and CEO, Partnership for Public Service:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                             For the Record

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    45
  Statement of the American Federation of Government Employees, 
    AFL-CIO......................................................    50

                                Appendix

Questions From Chairman Bennie G. Thompson for Angela Bailey.....    55
Questions From Chairwoman Xochitl Torres Small for Angela Bailey.    55
Questions From Honorable Dina Titus for Angela Bailey............    55
Questions From Ranking Member Mike Rogers for Angela Bailey......    56
Question From Chairman Bennie G. Thompson for Chris Currie.......    56
Question From Chairwoman Xochitl Torres Small for Chris Currie...    56
Questions From Honorable Dina Titus for Chris Currie.............    57
Question From Chairman Bennie G. Thompson for Max Stier..........    58
Questions From Honorable Dina Titus for Max Stier................    58

 
         SEVENTEEN YEARS LATER: WHY IS MORALE AT DHS STILL LOW?

                              ----------                              


                       Tuesday, January 14, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Barragan, Crenshaw, 
Higgins, and Taylor.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order.
    Good afternoon. We are here today to discuss employee 
morale at the Department of Homeland Security.
    Concerns about morale transcend party. Nearly 8 years ago, 
my Republican colleagues on this committee held a hearing on 
this very same subject.
    Today, the timing of this hearing coincides with the 
recently released ``Best Places to Work in the Federal 
Government'' rankings released by the Partnership for Public 
Service. Unfortunately, the results indicate a strong need for 
improvement. This year, as has been the case since 2012, DHS 
ranked last out of all large Federal agencies. DHS also ranked 
last out of the 7 National security agencies.
    I am particularly concerned by the fact that after a few 
years of minor improvements in overall morale, in 2019 employee 
morale at DHS decreased again.
    Given the critical mission of the Department, I fear the 
consequences should the Department not take urgent and drastic 
action to improve employee morale. We will have a greater 
challenge to face.
    I also worry about how this environment affects the well-
being of the more than 200,000 hardworking DHS employees, from 
Border Patrol agents and CBP officers working throughout my 
district to the thousands more keeping America safe. These 
employees deserve better.
    It is true that lifting morale at DHS is challenging when 
the Department remains a target of public criticism and intense 
scrutiny. Morale may be low, in part, because DHS employees are 
engaged in tough jobs on the front line.
    Yet, this is clearly not the whole picture. Such 
explanations fail to account for the fact that morale at DHS 
has been low since the Department's inception.
    Moreover, headquarter offices and support components, like 
the Office of Intelligence and Analysis, the Management 
Directorate, and the Office of Countering Weapons of Mass 
Destruction, receive poor ratings from their employees as well.
    For example, DHS's Office of Intelligence and Analysis, 
I&A, sits toward the bottom of the rankings, while other 
offices in the intelligence community have some of the highest 
morale Government-wide.
    In 2018, I&A was the second-worst-ranked Government office 
out of 415. Even with a modest improvement in employee morale, 
the office still sits ranked at 406 out of 420 ranked offices.
    Even more concerning is the fact that the Office of 
Countering Weapons of Mass Destruction, the office tasked with 
preventing attacks against United States soil, debuted on the 
list as the lowest-ranked office Government-wide.
    As the Partnership's data show and as Mr. Stier's testimony 
will further illustrate, this ultimately is a failure of 
leadership. According to the Partnership, while many factors 
influence an agency's overall ranking, effective leadership is 
the key driver for Federal employee morale.
    Despite these concerns, there were some bright spots 
throughout the Department that I hope we can learn from and 
apply DHS-wide.
    For example, the Coast Guard and the U.S. Citizenship and 
Immigration Services have both consistently received high 
scores from employees and are currently ranked in the top 25 
percent of all Federal offices.
    I was also encouraged to see that the Cybersecurity and 
Infrastructure Security Agency, CISA, has seen steady and 
consistent improvement in employee morale since 2013.
    Finally, the Secret Service, which has historically 
struggled with low employee morale, has shown signs that a 
multi-year effort to solicit and respond to feedback from 
employees and their families is beginning to pay off. I 
understand that the Department has recently launched a similar 
effort in the form of an Employee and Family Readiness Council, 
to identify and begin to address some of the primary concerns 
facing employees.
    Ms. Bailey, I hope to hear more from you this afternoon 
about these efforts as well as how Congress might be able to 
act to give the Department additional tools to improve morale. 
I also look forward to hearing from Mr. Stier about what models 
throughout Government the Department should be looking to as it 
pursues these efforts.
    Finally, I look forward to getting an outside and objective 
perspective from Mr. Currie about what DHS is doing well, where 
it needs to continue to improve, and what risks it exposes 
itself to under current circumstances.
    Before I conclude, I would like to take a moment to 
highlight some of the work this committee has done to improve 
morale at the Department.
    In 2019, I co-sponsored legislation introduced by Chairman 
Thompson, the DHS Morale, Recognition, Learning, and Engagement 
Act--very cleverly creating the MORALE Act--to require action 
on DHS's part to respond to its employees' concerns. This bill 
passed out of committee and the House on a bipartisan basis, so 
I am grateful to my Republican colleagues for their support of 
this legislation.
    Thank you to the witnesses for joining the subcommittee 
this afternoon. Good morale contributes to good job 
performance, something we all rely on when it comes to Homeland 
Security. I hope we have a productive discussion.
    [The statement of Ms. Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                            January 14, 2020
    Concerns about morale at DHS transcend party. Nearly 8 years ago, 
my Republican colleagues on this committee held a hearing on this very 
subject. Today, the timing of this hearing coincides with the recently-
released ``Best Places to Work in the Federal Government'' rankings 
released by the Partnership for Public Service. Unfortunately, the 
results indicate a strong need for improvement. This year, as has been 
the case since 2012, DHS ranked last out of the all large Federal 
agencies. DHS also ranked last out of the 7 National security agencies. 
I am particularly concerned by the fact that, after a few years of 
minor improvements in overall morale, in 2019, employee morale at DHS 
decreased again.
    Given the critical mission of the Department, I fear the 
consequences should the Department not take urgent and drastic action 
to improve employee morale. I also worry about how this environment 
affects the well-being of the more than 200,000 hard-working DHS 
employees--from the Border Patrol Agents and CBP Officers working 
throughout my district to the thousands more keeping America safe. 
These employees deserve better. It's true that lifting morale at DHS is 
challenging when the Department remains a target of public criticism 
and intense scrutiny. And, morale may be low in part because DHS 
employees are engaged in tough jobs on the front line. Yet, this is 
clearly not the whole picture. Such explanations fail to account for 
the fact morale at DHS has been low since the Department's inception. 
Moreover, Headquarter offices like the Office of Intelligence & 
Analysis, the Management Directorate, and the Office of Countering 
Weapons of Mass Destruction receive poor ratings from their employees. 
For example, DHS's Office of Intelligence & Analysis (I&A) sits toward 
the bottom of the rankings while other offices in the intelligence 
community have some of the highest morale Government-wide.
    In 2018, I&A was the second-worst ranked Government office out of 
415. Even with a modest improvement in employee morale, the office 
still sits ranked 406th out of 420 ranked offices. Even more concerning 
is the fact that the Office of Countering Weapons of Mass Destruction, 
the office tasked with preventing attacks against U.S. soil, debuted on 
the list as the lowest-ranked office Government-wide. As the 
Partnership's data show and as Mr. Stier's testimony will further 
illustrate, this is ultimately a failure in leadership. According to 
the Partnership, while many factors influence an agency's overall 
ranking, effective leadership is the key driver for Federal employee 
morale.
    Despite these concerns, there were some bright spots throughout the 
Department that I hope we can learn from and apply DHS-wide. For 
example, the Coast Guard and U.S. Citizenship and Immmigration Services 
have both consistently received high scores from employees and are 
currently ranked in the top 25 percent of all Federal offices. I was 
also encouraged to see that the Cybersecurity and Infrastructure 
Security Agency (CISA) has seen steady and consistent improvement in 
employee morale since 2013.
    Finally, the Secret Service, which has historically struggled with 
low employee morale, has shown signs that a multi-year effort to 
solicit and respond to feedback from employees and their families is 
beginning to pay off. I understand that the Department has recently 
launched a similar effort in the form of an Employee and Family 
Readiness Council to identify and begin to address some of the primary 
concerns facing employees. Ms. Bailey, I hope to hear more from you 
this afternoon about these efforts as well as how Congress might be 
able to act to give the Department additional tools to improve morale. 
I also look forward to hearing from Mr. Stier about what models 
throughout Government the Department should be looking to as it pursues 
these efforts. Finally, I look forward to getting an outside and 
objective perspective from Mr. Currie about what DHS is doing well, 
where it needs to continue to improve, and what risks it exposes itself 
to under current circumstances. Before I conclude, I would like to take 
a moment to highlight some of the work this committee has done to 
improve morale at the Department. In 2019, I cosponsored legislation 
introduced by Chairman Thompson--the DHS Morale, Recognition, Learning, 
and Engagement Act (DHS MORALE Act)--to require action on DHS's part to 
respond to its employees concerns. This bill passed out of committee 
and the House on a bipartisan basis so I acknowledge my Republican 
colleagues for their support of this legislation.

    Ms. Torres Small. The Chair now recognizes the Ranking 
Member of the subcommittee, the gentleman from Texas, Mr. 
Crenshaw, for an opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small, and I am 
very pleased that you called this hearing today. The morale of 
the Department of Homeland Security and its employees is of the 
utmost importance.
    Thank you all for being here and taking time out of your 
day.
    DHS has been besieged with issues of low morale, high-level 
vacancies, and mismanagement since its inception. Some of the 
struggle is understandable from an agency that was created by 
combining so many unique entities with their own mission sets. 
However, almost 17 years after its creation we need to see some 
real progress in this area. The work the Department does makes 
this too important to ignore.
    DHS employs over 200,000 individuals dedicated to 
protecting the homeland and the American people. It is 
imperative to our security that those individuals are satisfied 
in their job, feel supported by Department leadership, and have 
support from the people of this country in their mission to 
secure the homeland.
    The most recent survey of DHS employees shows that 56 
percent of employees are satisfied in their jobs. While this is 
an improvement over recent years, DHS is still ranked last 
among large agencies. The survey shows that while 87 percent of 
the employees feel that they do important work, 63 percent felt 
that there was no consequence for employees who underperform, 
and only 36 percent felt motivated by their leadership.
    Unfortunately, these employee viewpoints are not new. 
Similar numbers were reported at a hearing this committee held 
on morale during the Obama administration.
    The responses to these questions show fundamental issues 
with the leadership of DHS and its components. While the 
employees value their work, they do not feel valued in their 
workplace. This is a problem that starts at the top. DHS 
leadership must hire and promote leaders who can motivate their 
staff, and they must find ways to reward good performance and 
address underperformance.
    I was pleased to find out that DHS has established an 
Employee and Family Readiness Council to address challenges DHS 
employees face. This is a step in the right direction. However, 
I believe more needs to be done to determine the root causes of 
the employee dissatisfaction.
    While I believe some of the dissatisfaction has its roots 
in the organization of the Department, I also believe and need 
to point out that the physical attacks on the Offices of 
Immigration and Customs Enforcement and the verbal attacks on 
ICE and Customs and Border Protection as well as the Department 
as a whole by Members of Congress and the media absolutely 
undermine employee morale.
    Every day DHS employees strive to carry out critical 
missions to protect the people of this country, from CBP agents 
on the border, ICE, HSI conducting counter proliferation 
operations and counter human trafficking operations, and CISA 
ensuring physical and cybersecurity that keep us safe. They 
should not be blamed for the failings of an immigration system 
that we as a Congress have not acted to fix.
    Good morale at an agency can help drive progress and ensure 
mission success. Bad morale can lead to a disconnected work 
force and a lack of commitment to an agency's mission. With an 
agency like DHS, the stakes are too high to allow this to 
happen.
    DHS needs to develop a clear vision for addressing the root 
causes as well as metrics to measure its success. It also needs 
to develop ways to motivate, instill, and reward performance.
    I look forward to hearing from our witnesses today on the 
causes of the low morale at DHS as well as the steps DHS should 
take to address it.
    I yield back.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                             Jan. 14, 2020
    I am pleased that you called this hearing today. The morale of the 
Department of Homeland Security employees is of the utmost importance.
    DHS has been besieged with issues of low morale, high-level 
vacancies, and mismanagement since its inception.
    Some of this struggle is understandable from an agency that was 
created by combining so many unique entities with their own mission 
sets. However, almost 17 years after its creation, we need to see some 
real progress in this area. The work the Department does makes this too 
important to ignore.
    DHS employs over 200,000 individuals dedicated to protecting the 
homeland and the American people. It is imperative to our security that 
those individuals are satisfied in their jobs, feel supported by 
Department leadership, and have support from the people of this country 
in their mission to secure the homeland.
    The most recent survey of DHS employees shows that 56 percent of 
employees are satisfied in their jobs. While this is an improvement 
over recent years, DHS is still ranked last among large agencies. The 
survey shows that while 87 percent of the employees feel that they do 
important work, 63 percent felt that there was no consequence for 
employees that underperform and only 36 percent felt motivated by their 
leadership. Unfortunately, these employee viewpoints are not new; 
similar numbers were reported at a hearing this committee held on 
morale during the Obama administration.
    The responses to these questions show fundamental issues with the 
leadership of DHS and its components. While the employees value their 
work, they do not feel valued in their workplace. This is a problem 
that starts at the top. DHS leadership must hire and promote leaders 
who can motivate their staff and they must find ways to reward good 
performance and address underperformance.
    I was pleased to find out that DHS has established an Employee and 
Family Readiness Council to address challenges DHS employees face. This 
is a step in the right direction. However, I believe more needs to be 
done to determine the root causes of the employee dissatisfaction.
    While I believe that some of the dissatisfaction has its roots in 
the organization of the Department, I also believe that the physical 
attacks on the offices of Immigration and Customs Enforcement and the 
verbal attacks on ICE and Customs and Border Protection, as well as the 
Department as a whole by Members of Congress and the media undermine 
employee morale.
    Every day, DHS employees strive to carry out critical missions to 
protect the people of this country. From CBP agents on the border, ICE 
HSI conducting counter proliferation operations, and CISA ensuring 
physical and cybersecurity--they keep us safe. They should not be 
blamed for the failings of an immigration system that we as a Congress 
have not acted to fix.
    Good morale at an agency can help drive progress and ensure mission 
success; bad morale can lead to a discontented workforce and a lack of 
commitment to an agency's mission.
    With an agency like DHS, the stakes are too high to allow this to 
happen.
    DHS needs to develop a clear vision for addressing the root causes, 
as well as metrics to measure its success. It also needs to develop 
ways to motivate staff and reward performance. I look forward to 
hearing from our witnesses today on the causes of the low morale at 
DHS, as well as the steps DHS should take to address it.

    Ms. Torres Small. Thank you.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            January 14, 2020
    At a similar hearing before this committee nearly 8 years ago, I 
lamented that 11 years into the Department's existence, it remained at 
or near the bottom in Federal Government morale rankings. I am 
disappointed to say that little has changed in the ensuing years. The 
Department continues to be plagued with low morale and employee 
dissatisfaction and remains ranked at the bottom of Federal human 
capital surveys. In rankings recently released by the Partnership for 
Public Service, the Department is the worst-rated of 17 large Federal 
agencies. The Department also ranks last among large agencies in the 
following categories: Training, teamwork, work-life balance, and 
support for diversity, among others. Given its mission, this crisis is 
not just about human capital management. It is about the security of 
our country. More than 200,000 employees who serve every day at the 
Department are dedicated in their effort to keep our country safe. They 
are committed to their mission, and according to Office of Personnel 
Management survey data 87 percent believe the work they do is 
important. This is, ultimately, a failure in leadership.
    According to the Partnership for Public Service's analysis, 
effective leadership is the key driver in overall employee morale. 
Unfortunately, in 2019, the Department ranked as the worst large 
Federal agency in the ``effective leadership'' category. And Office of 
Personnel Management survey data shows that less than half of DHS 
employees have a high level of respect for the Department's senior 
leaders. This crisis requires urgent action. In his exit memorandum, 
former Secretary of Homeland Security Jeh Johnson cited the need ``for 
an aggressive campaign to improve morale and satisfaction at the 
Department.'' Yet I am concerned that low morale is not being treated 
with the necessary urgency. For example, right now, 13 senior 
leadership roles throughout the Department are filled by acting 
officials who have little empowerment to implement the kind of 
organizational change needed to improve employee morale.
    And after 3 years of slight improvement in morale, the 
Partnership's data show that employee morale decreased again in 2019. 
As such, one of the first pieces of legislation I introduced this 
Congress was the ``Department of Homeland Security Morale, Recognition, 
Learning, and Engagement Act'' (DHS Morale Act). The bill would create 
and catalogue leadership development opportunities and would create an 
Employee Engagement Steering Committee to identify and address issues 
affecting morale. It also would also authorize the Secretary to 
establish an award program to recognize employees for significant 
contributions to the Department's goals and mission. The DHS MORALE Act 
has been endorsed by the National Border Patrol Council, the National 
Treasury Employees Union, and the American Federation of Government 
Employees--unions representing a large swath of the Department's 
employees.
    I was encouraged to learn that the Department recently launched an 
Employee and Family Readiness Council, made up of representatives from 
all the components, to identify and begin to address some of the 
primary concerns raised by employees. I hope to hear more from Chief 
Human Capital Officer Bailey about these efforts and see evidence that 
DHS is treating this morale problem with the urgency it deserves.

    Ms. Torres Small. I now welcome our panel of witnesses and 
thank them for joining us today.
    Our first witness is Ms. Angela Bailey, chief human capital 
officer of the Department of Homeland Security. In that role, 
she is responsible for the Department's Human Capital Program, 
including human resource policy, recruitment and hiring, and 
employee development. She has dedicated more than 38 years to a 
career in public service, with 32 of those years in human 
resources. Ms. Bailey was appointed to her current position in 
January 2016.
    Our second witness, Mr. Chris Currie, is a director on the 
Homeland Security and Justice Team at the Government 
Accountability Office. He leads the agency's work on National 
preparedness, emergency management, and critical infrastructure 
protection issues. Mr. Currie has been with GAO since 2002 and 
has been the recipient of numerous agency awards, including the 
Meritorious Service Award in 2008.
    Our final witness is Mr. Max Stier, founding president and 
CEO of the Partnership for Public Service. At the Partnership, 
he has overseen a center focusing on the Presidential 
transition, an awards program that recognizes exceptional civil 
servants, annual rankings that examine employee engagement, and 
numerous leadership development programs. Before joining the 
Partnership, he had a career spanning all 3 branches of 
Government.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statements for 5 minutes, beginning with Ms. Angela 
Bailey.

 STATEMENT OF ANGELA BAILEY, CHIEF HUMAN CAPITAL OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Bailey. Good afternoon, Chairwoman Torres Small, 
Ranking Member Crenshaw, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss the Department of Homeland Security's 
sustained efforts to enhance employee morale and engagement.
    DHS employees are on the Nation's front lines, performing 
extremely difficult work under challenging conditions. Think of 
our Transportation Security Officers screening frantic 
passengers who are trying to make flights home, knowing that 1 
second of inattention could jeopardize their lives, or FEMA 
employees leaving their families to deploy to a disaster site 
under austere conditions, or Border Patrol agents trying to 
humanely manage an overwhelming volume of migrants.
    In addition, think of the ICE Homeland Security 
Investigations team whose work led to capturing and convicting 
El Chapo, the notorious international drug cartel leader, or 
one of our Coast Guard employees whose work during Hurricane 
Florence contributed to saving 75 lives.
    It is all difficult, critically necessary, and often 
thankless work, and it can put our dedicated employees under 
harsh public scrutiny for simply doing their jobs.
    At the same time they are performing these incredibly 
important duties, our employees worry about life challenges as 
well, like paying student loan debt, picking up their kids on 
time, taking care of sick or elderly family members, or missing 
yet another family obligation, such as a vacation, birthday, or 
anniversary due to work.
    This is why we see DHS's employee engagement as a team 
effort. Our Federal Employee Viewpoint Survey scores reflect 
the hard work that all levels of our Department have undertaken 
to meet the needs of our talented and dedicated work force.
    Our leaders are actively engaged. Our union representatives 
take personal time to take a fallen agent's little boy to a 
baseball practice, and our employees volunteer to assist their 
colleagues through extra assignments and peer support.
    Perhaps this is why the DHS Employee Engagement Index, or 
EEI, improved again, by 2 percentage points in 2019 and by 9 
percentage points since 2015. During this same period, the 
Government-wide score increased only 4 percentage points.
    In 2019, the Department's positive responses increased on 
55 of the 71 core FEVS questions. In fact, OPM shows us as 1 of 
the 3 most improved very large agencies, and GAO rated our 
efforts as mostly addressed as a result of our continued 
improvement.
    Improving employee morale and engagement is a sustained 
effort by everyone in DHS. The cornerstone of this positive 
change is the collective support of our various Department and 
component-level councils, including the DHS Employee Engagement 
Steering Committee.
    As a result, we have seen some notable component-level 
successes. For example, the Secret Service has achieved 
substantial sustained improvement since 2016. This progress is 
the result of paying attention to FEVS data and reaching out 
directly to employees to solicit feedback on root causes of 
dissatisfaction. It is a textbook example, and it has paid off.
    Another example is at TSA, where employee satisfaction data 
helps identify root causes and solutions for local 
implementation. In 2018, sites receiving this support 
experienced an 8 percent increase in the EEI, and in 2019 sites 
improved 5 percent. In fact, since 2015, all of our major 
components increased and in 1 case by 15 percentage points.
    We have also instituted new initiatives, like Leadership 
Year and Employee and Family Readiness, or EFR. EFR is designed 
to build a more robust infrastructure of support for employees 
and their families. In 2019, our EFR Council, made up of 
representatives from all of the components, began work on the 
top 5 issues our employees experience on a daily basis: General 
stress, personal relationship issues, mental health, dependent 
care, and financial concerns. Work continues on these in 2020, 
plus we have added 2 new focus areas: Social connectedness and 
wellness.
    My office, in collaboration with partners across the 
Department, will continue to enhance our efforts, listen to and 
act on employee feedback, and support the Department's 
leadership commitment to our work force.
    Thank you again for the opportunity to testify today. The 
Department would not be successful without your support and the 
support of our brave men and women, who sacrifice each day to 
make our country safe.
    I look forward to your questions.
    [The prepared statement of Ms. Bailey follows:]
                  Prepared Statement of Angela Bailey
                            January 14, 2020
                              introduction
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
before you today to discuss efforts to enhance employee morale and 
engagement at the U.S. Department of Homeland Security (DHS or the 
Department).
    I am Angela Bailey, the Department's Chief Human Capital Officer. I 
joined DHS in January 2016 as a career Federal executive and have more 
than 38 years of service, 32 of those in human resources.
    DHS was established in 2002, combining 22 different Federal 
departments and agencies into a unified, integrated Cabinet agency. 
While each of our components has its own distinct homeland security 
mission and history, we are unified and steadfast in our goal--to 
safeguard the American people, our homeland, and our values.
    Many of our employees are on the front lines, executing our mission 
every day, performing extremely difficult work under some of the most 
challenging circumstances and conditions. They interact with the 
American public and people from around the world to prevent terrorism; 
enhance security; secure and manage our borders; administer and enforce 
our immigration laws; safeguard travel; monitor and secure cyber space; 
respond to and provide relief from disasters; protect our National 
leaders; and prevent drug and human trafficking.
    At the same time our employees are performing these incredibly 
important duties, the approximately 240,000 men and women in the 
Department are also mothers and fathers, husbands and wives, neighbors, 
and engaged members of their community. They worry about the same 
things other Americans worry about, including: Student loan debt, 
making it on time to pick up their children from daycare or school, 
taking care of an elderly family member, or missing yet another family 
vacation due to work obligations. Adding to these concerns is the 
possibility of future Government shutdowns, meaning our employees may 
work without pay, for some period of time, due to lapsed 
appropriations.
    In fact, during the partial Government shutdown last year, 86 
percent of the DHS workforce continued to work without pay--most of 
those employees were our front-line law enforcement officers and agents 
who face danger each and every day. However, our 2019 Federal Employee 
Viewpoint Survey (FEVS) results show that despite unmanageable 
workloads, delayed work, missed deadlines, and time lost restarting 
work for many of our employees, only 3 percent of respondents said they 
are looking for another job specifically because of the shutdown.
    Another indicator of how dedicated our employees are to the DHS 
mission is that almost 1,000 employees across the Department joined the 
DHS Volunteer Force, to alleviate stress the crisis on the Southern 
Border has on U.S. Customs and Border Protection and U.S. Immigration 
and Customs Enforcement front-line personnel. While these employees 
were volunteering, others in their home offices sought to ensure their 
responsibilities were covered. These actions represent an incredible 
effort that speaks volumes about a workforce who values and supports 
each other day-to-day and steps up even more in crisis situations.
                          employee engagement
    The Department's FEVS scores over the last several years reflect 
the hard work leadership at all levels has undertaken. DHS is listening 
to employee feedback and taking action. In an organization as enormous 
and diverse as DHS, change comes slowly and incrementally--yet change 
is happening.
    The Partnership for Public Service and their Best Places scoring 
currently shows DHS decreased less than 1 point, yet this information 
is based on only 3 core FEVS questions out of 71. DHS tracks the 
Employee Engagement Index (EEI) score as calculated by the Office of 
Personnel Management (OPM) from FEVS data. The EEI is comprised of 15 
key questions that together are a good indicator of employee 
engagement. The DHS EEI improved by 2 percentage points in 2019. In 
fact, DHS is 1 of 3 very large agencies identified by OPM as having top 
EEI increases (the other 2 were the Air Force and the Army). In 
addition, the Department's positive responses increased on 55 of the 
core FEVS questions, decreased on only 4, and those decreases were by 
just 1 percentage point.
    The cornerstone of this positive change is the DHS Employee 
Engagement Steering Committee (EESC), chaired by the Under Secretary 
for Management and staffed by component executives. This body serves as 
a forum for sharing ideas and best practices and helps ensure component 
accountability. The EESC also represents a mixture of internal and 
external information exchange.
    Internally, components share ideas and knowledge for employee 
engagement with each other. Externally, for example, DHS is holding 
executive sessions with corporations to hear about their leadership 
practices. In a recent session, we gained tremendous insight into the 
benefits of an intentional approach to building a supportive culture. 
Our next panel session will focus on another corporation's culture 
change journey. Although the private sector is very different in many 
ways from the Federal Government, what is striking about the session so 
far, and I expect the same in future sessions, is how very similar we 
are in working to create an engaged culture, and how much we can learn 
from our shared challenges and successes.
    Members of the EESC are also responsible for component-level 
employee engagement action plans, which are updated each year based on 
FEVS results and are approved by component leadership. Through this 
mechanism, DHS has empowered components to tailor their plans according 
to their mission and workforce needs. In addition, the EESC has created 
a loop of accountability that keeps leadership focused on formulating 
and executing plans.
    DHS data from the FEVS shows that over the last 4 years, when DHS 
employees were asked the important question, ``I believe the results of 
this survey will be used to make my agency a better place to work,'' we 
have made consistent progress informing employees that their input is 
heard. In fact, this year 40 percent of our employees responded 
positively to this question, which is only 1 percentage point below the 
Government average--and 8 percentage points above our score in 2015.
    The General Accountability Office (GAO) has recognized our strong 
work and success addressing engagement and accountability. Of the 2 
employee engagement items on the Department's High-Risk List, GAO 
rewarded our progress on Component Action Plans with a ``fully 
addressed'' status in 2018, and our progress on improving FEVS scores 
with a ``mostly addressed'' status just last month.
    Below are some notable examples of DHS component accomplishments 
toward employee engagement:
  <bullet> With the release of the most recent Best Places to Work in 
        the Federal Government rankings, the Partnership for Public 
        Service specifically mentioned the U.S. Secret Service as 
        having substantial, sustained improvement from 2016 forward. 
        This progress is the result of paying attention to FEVS 
        results, reaching out directly to employees to solicit further 
        feedback on root causes of dissatisfaction, and finding 3 main 
        focus areas to take action: Staffing, work-life balance, and 
        leader development. This is a textbook example of executing on 
        the Department's expectations for action planning, and it has 
        paid off.
  <bullet> Another example is an initiative of the Transportation 
        Security Administration (TSA), which offers ``Local Action 
        Planning'' at sites with lower levels of employee satisfaction 
        to identify root causes of challenges and solutions for local 
        implementation. TSA sends expert teams on-site to conduct focus 
        groups, make recommendations, and guide local leaders through 
        the planning process. TSA has experienced positive trends in 
        FEVS ratings in these targeted locations. The Department's 
        Office of the Chief Human Capital Officer (OCHCO) is 
        collaborating with TSA and OPM to pilot another tool, the DHS 
        Leadership Survey, that allows employees to provide upward 
        feedback on their first-, second-, and third-line supervisors. 
        DHS experienced tremendous success with this tool at Los 
        Angeles International Airport and with the Federal Air Marshals 
        Service and is moving forward with 2 new airport sites in 2020.
    We know that meaningful engagement takes continuous attention and 
it starts with leaders. Within my office, the DHS OCHCO, we take FEVS 
results very seriously, at even the most local levels, including making 
personnel changes to improve the organization.
    In November 2019, OCHCO brought together the executive cadre of DHS 
to hear from the Acting Secretary and from our Presidential Rank 
Awardees in what has become an annual gathering focused on excellence 
in leadership. One of the featured presentations was from the 
leadership team from Los Angeles International Airport that discussed 
their experience with the DHS Leadership Survey.
    DHS has also strengthened its agency-wide leadership development 
programs by providing more opportunities for lower-grade employees to 
begin their leadership journeys, additional rotational experiences, and 
further career path guidance. Several examples of these efforts are 
highlighted below:
  <bullet> In fiscal year 2019, DHS implemented a brand-new part of its 
        leader development strategy called the ``Leadership Bridges 
        Program.'' Instead of waiting to develop leadership skills at 
        each level, this new element of the strategy establishes a 
        variety of products and tools for employees seeking to increase 
        their capabilities and aspire to higher leadership levels.
  <bullet> One of the most exciting new products is the roll-out of a 
        program to prepare employees in supervisory acumen ahead of 
        their advancement to supervisory positions. DHS launched an 
        innovative self-paced program that meets the needs of our 
        geographically-dispersed workforce and provides motivated 
        employees--at any grade level--with a set of curated activities 
        central to the development of essential supervisory leadership 
        competencies.
  <bullet> Additionally, in fiscal year 2020, DHS will launch a 6-month 
        pilot Supervisory Leadership Bridges Cohort program to guide 
        participants in specific job series through a rigorous process 
        to identify traits validated to be predictive of leadership 
        success and build on those traits with classroom, mentoring, 
        and experiential learning. As DHS anticipates both a hiring 
        surge and significant retirement in the 1800 job series, the 
        Leadership Bridges Program provides a ready talent pool of 
        employees who will hit the ground running, already familiar 
        with the critical supervisory acumen that results in an 
        engaged, proficient workforce.
          employee and family readiness and employee retention
    Kicked off in 2019 and continuing into 2020, DHS's current 
signature employee engagement initiative is Employee and Family 
Readiness (EFR). With a workforce that operates day in and day out 
under tremendous stress and challenge, OCHCO identified the need for a 
more robust infrastructure of support not only for employees, but for 
their family members as well.
    One key program we are working on across all components is enhanced 
initiatives to prevent suicides. We are working to improve and expand 
existing programs while also adding new approaches. In addition, DHS 
established an Employee and Family Readiness Council (EFRC), made up of 
representatives from all the components, that serves in an advisory 
capacity to the EFR Initiative. The goals are to develop and promote a 
unified strategy and common vision of EFR, explore opportunities to 
share resources between components, set annual priorities, and 
collaborate to address these priorities across the enterprise.
    In addition to permanent programs such as suicide prevention, the 
EFRC identified and ranked 18 family resilience issues by priority to 
create annual goals and began working on the top 5 in 2019. These 5 
areas were: General stress, personal relationship issues, mental 
health, dependent care, and financial concerns. Work continues on all 
of these areas in 2020, plus we have added 2 new focus areas: Social 
connectedness and wellness.
  <bullet> General Stress.--In fiscal year 2019, 24 mindfulness 
        resilience and stress reduction training classes were held 
        across DHS, reaching over 700 employees. The response to this 
        training was positive and additional courses are planned for 
        fiscal year 2020. This training helps our employees, in 
        particular the law enforcement community, stay in the present, 
        let go of negative experiences, and increase resilience to 
        adverse life events.
  <bullet> Personal Relationships.--DHS is using a 2-pronged approach 
        to address personal relationships, to include Stronger Bonds 
        training and counseling through Employee Assistance Programs. 
        For example, the Stronger Bonds curriculum draws upon proven 
        strategies from couples therapy and research on commitment and 
        relationship development. This curriculum was reviewed by the 
        National Registry of Evidence-based Programs and Practices and 
        is listed in the U.S. Government's Substance Abuse and Mental 
        Health Services Administration's registry of evidence-based 
        programs and practices. In 2019, OCHCO trained 45 DHS employees 
        to facilitate Stronger Bonds Workshops for DHS employees and 
        their family members, and in 2020 we plan to train more DHS 
        employees to facilitate this course.
  <bullet> Mental Health.--DHS will launch a public-facing website in 
        2020 to provide easily accessible information for employees and 
        their families. The site is life-event based, with a focus on 
        encouraging individuals to seek help to address concerns. The 
        overarching message of this initiative is that there is no 
        stigma in reaching out for help. The site soft-launched in 2019 
        and will be updated for the 2020 full launch with 2 new content 
        areas designed for spouses and children of DHS employees.
  <bullet> Dependent Care.--According to OPM research, by 2021, 43 
        percent of DHS employees will have childcare responsibilities 
        and 32 percent will have adult care responsibilities. To ensure 
        that DHS understands the needs of the workforce, the Department 
        is currently conducting a Nation-wide workforce needs 
        assessment. This effort will allow DHS to identify both the 
        current needs of its workforce regarding dependent care as well 
        as projected needs 5 to 10 years in the future.
  <bullet> Financial Concerns.--The Financial Literacy Campaign, 
        ``Invest in Your Financial Health,'' provides helpful 
        information and accessible financial resources, addresses 
        common concerns, and directs employees to internal programs 
        promoting financial wellness. This campaign kicked off in March 
        2019 and runs through March 2020.
  <bullet> Wellness.--An awareness campaign encouraging healthy 
        lifestyle choices kicks off this month. Each month, articles 
        and/or podcasts will be made available to employees and their 
        families, through the DHS public-facing website.
  <bullet> Social Connectedness.--Initiatives in this area include 
        exploring ways to facilitate awareness of employee resources 
        and affinity groups across components. DHS is also seeking to 
        connect with spouse networks and family support groups to 
        provide information about the EFR Initiative.
    These programs noted above are coupled with other traditional 
retention strategies, such as cyber retention pay, special salary 
rates, student loan repayments, child care subsidies, and employee 
engagement, to round out the overarching DHS retention strategy.
                                 hiring
    Due to DHS's critical mission, we are fortunate to have an 
abundance of applicants for many of the jobs we post. In order to serve 
both the applicants and DHS well, we have worked to innovate and 
streamline our hiring practices to reduce time-to-hire and get people 
on-board as fast as practical. Through our innovations, our time-to-
hire is down to as low as 107 days, a reduction of 34 percent from our 
rate 5 years ago, and we continue to look for more efficient and 
innovative practices every day.
    While DHS hiring strategies include time-to-hire, hiring hubs, and 
hiring events, they start with DHS thinking about not only our 
requirements for today, but also 5 to 10 years from now. Determining 
how many and what type of employees will we need is a critical first 
step, followed by a discussion of the kind of skills and abilities we 
need, as well as where will we find such talent. Based on these 
discussions, strategies concerning how best to ``buy or build'' talent, 
including partnering with local schools, universities, industry, the 
military, and our local communities, are developed. These strategies 
are coupled with examinations of our hiring process, finding ways to 
streamline the hiring process and making it less arduous for those 
applying for our positions, and identifying technology advancements 
that can integrate our hiring systems making the process more 
efficient.
    The reason these hiring strategies are so important is that, by 
ensuring our positions are filled with the right leaders and 
technically skilled personnel, we can drive down overtime, shorten 
deployments, and create a better work-life balance for our employees--
all of which our employees have told us through the FEVS and other 
focus groups that they desire. Our hiring strategies help us retain our 
talented workforce. However, just having positions filled is not enough 
to retain our employees, or more importantly, to ensure that while they 
are carrying out their missions they have the tools necessary to deal 
with all that the job and life throws their way. As a result, and noted 
above, we place special emphasis on taking care of our employees and 
their families as the cornerstone of our retention strategy.
    Despite our hiring efforts, there is always room for improvement. 
Additionally, a way for Congress to help us is to support our 
legislative proposal, the Department of Homeland Security Enhanced 
Hiring Act. DHS seeks to use this authority in an effort to streamline 
and simplify the agency's hiring authorities in a manner that ensures 
the Department is able to expeditiously hire the best-qualified 
candidates for mission-critical positions and sustain its record of 
hiring veterans. This legislative proposal would enhance the current 
noncompetitive hiring authorities for veterans and establish other 
important hiring authorities. I respectfully request that Congress 
expeditiously takes up and passes such legislation.
                               conclusion
    The Department recently celebrated the Secretary's Awards Ceremony, 
which recognizes achievements of dedicated and talented DHS employees 
from across the country. In listening to the descriptions of all the 
accomplishments, I was reminded that every day the men and women of DHS 
carry out difficult and often dangerous work that often is unseen by 
the American public. They do an outstanding job and have a deep 
commitment to the mission. Through our efforts dedicated to employee 
engagement, retention, and hiring, OCHCO is determined to enhance their 
work experience and home life and honor their contributions.
    My office, in collaboration with partners across the Department, 
will continue to enhance our efforts, listen to and act on employee 
feedback, and support the Department's leadership commitment to our 
workforce.
    Thank you again for the opportunity to testify today. The 
Department would not be successful without your support and the support 
of our brave men and women who sacrifice each day to make our country 
safe. I look forward to your questions.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Mr. Currie to summarize his statement for 5 
minutes.

  STATEMENT OF CHRIS CURRIE, DIRECTOR, HOMELAND SECURITY AND 
      JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairwoman Torres Small, Ranking 
Member Crenshaw, other Members of the committee that are here 
today. We appreciate the opportunity to be here to talk about 
GAO's work on DHS morale.
    I personally and those of us at GAO have been working on 
this issue since the Department was created, and I want to say 
from the beginning we have tremendous respect for the men and 
women at DHS and the hard work that they do every day and the 
intense public pressure they face and the public scrutiny with 
which they do their jobs.
    I also know that nobody cares more about this problem than 
the leadership of the Department, and we have seen this across 
administrations. It is not a partisan issue. It is something 
that every administration has really worked hard to address.
    Since 2003, DHS has been on our high-risk list at GAO, and 
a big part of that is because of human capital management 
challenges. A big part within the human capital management area 
has been employee morale and training, performance management 
standards, and all the things that lead up to what creates a 
person's morale.
    Over the last 5 years particularly, we have seen a number 
of positive changes in this area. As Ms. Bailey mentioned, we 
have seen DHS make steady progress in the FEVS scores, and do 
it in years when sometimes other Government agencies have 
actually seen a decrease. So they are making slow and steady 
progress, but obviously there is a lot more that needs to be 
done.
    They have done this by implementing a number of 
recommendations across a number of agencies. For example, they 
have implemented our recommendations to develop employee 
engagement plans, not just the whole Department but the 
components themselves, that identify the root causes of morale 
issues.
    As the Ranking Member said, these root causes are varied. A 
lot of these things have to do with just core leadership 
management issues. Do I trust my supervisor? Do I believe in 
our performance management system? Do I think our agency has 
the ability to hire the people we need to do their jobs?
    These are the kind of things we see not just at DHS, but 
across Government. So I absolutely agree that while DHS faces a 
unique mission and unique challenges, a lot of agencies face 
unique missions and unique challenges and don't have the level 
of morale that DHS has right now.
    I also want to say that, unfortunately, as was said, DHS's 
morale scores are still toward the bottom of large departments. 
I think that you have to look within DHS to really get a better 
sense of those numbers. The Department is huge, and the 
components are so varied and different, and different in size, 
too.
    So what plagues TSA is going to be completely different 
than what the Coast Guard faces. The Coast Guard is an agency 
that has been around for many, many years, has a strong 
leadership culture, has its own academy, well-grounded 
management principles, and a structure and hierarchy. So it is 
understandable that TSA is going to take much longer to get to 
the point where they have addressed their morale issues.
    There are really just a few things I want to point to 
moving forward that I think we need to focus on moving forward.
    First is, I really think that this committee and other 
committees, as you are conducting your oversight over component 
missions, like border security, cybersecurity, emergency 
management, that you speak to the leadership of those 
components about this issue, too, and that human capital and 
morale issues be held at the same standard of accountability as 
the mission side, as otherwise they are not going to have the 
incentive to address the issues like they will on the mission 
side.
    Also, I think there needs to be a focus on a few specific 
components. If you look at CBP and TSA, they have somewhere in 
the range of a third to almost a half of the Department's 
employees. So I think a focus needs to be put on the place 
where the most impact can be made.
    Then last, I think that you need to continue the oversight 
in terms of these types of hearings and with the components as 
well, and really to drive this home.
    So thank you for the opportunity to testify. I look forward 
to the questions.
    [The prepared statement of Mr. Currie follows:]
                   Prepared Statement of Chris Currie
                            January 14, 2020
                             gao highlights
    Highlights of GAO-20-349T, a testimony before the Subcommittee on 
Oversight, Management, and Accountability, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    DHS is the third-largest Cabinet-level department in the Federal 
Government, employing more than 240,000 staff in a broad range of jobs, 
including countering terrorism and homeland security threats, providing 
aviation and border security, emergency response, cybersecurity, and 
critical infrastructure protection. Since it began operations in 2003, 
DHS has faced challenges with low employee morale and engagement. 
Federal surveys have consistently found that DHS employees are less 
satisfied with their jobs compared to the average Federal employee. For 
example, DHS's scores on the FEVS and the Partnership for Public 
Service's rankings of the Best Places to Work in the Federal 
Government are consistently among the lowest for similarly-sized 
Federal agencies.
    This statement addresses our past and on-going work monitoring 
human capital management and employee morale at DHS and select work on 
employee engagement across the Government. This statement is based on 
products GAO issued from September 2012 through May 2019 as well as 
GAO's on-going efforts to monitor employee morale at DHS as part of 
GAO's high-risk work. For these products, GAO analyzed DHS strategies 
and other documents related to DHS's efforts to address its high-risk 
areas, interviewed DHS officials, conducted analyses of FEVS data, and 
interviewed officials from other Federal agencies that achieved high 
employee engagement scores, among other things.
    GAO provided a copy of new information in this statement to DHS for 
review. DHS confirmed the accuracy of this information.
    department of homeland security.--employee morale survey scores 
              highlight progress and continued challenges
What GAO Found
    The Department of Homeland Security (DHS) has undertaken 
initiatives to strengthen employee engagement through efforts at its 
component agencies and across the Department. For example, at the 
headquarters level, DHS has instituted initiatives to improve awareness 
and access to support programs, benefits, and resources for DHS 
employees and their families.
    In 2019, DHS improved its employee engagement scores, as measured 
by the Office of Personnel Management's Federal Employee Viewpoint 
Survey (FEVS)--a tool that measures employees' perceptions of whether 
and to what extent conditions characterizing successful organizations 
are present in their agency. As shown below, DHS increased its scores 
on a measure of employee engagement, the Employee Engagement Index 
(EEI), across 4 consecutive years, from a low of 53 percent in 2015 to 
62 percent in 2019.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While DHS has made progress in improving its scores, in 2019 it 
remained 6 points below the Government-wide average for the EEI. For 
several years, DHS and its component agencies have identified root 
causes for their engagement scores including concerns about leadership 
accountability and understaffing, among others. This statement 
discusses 9 recommendations related to DHS employee engagement and 
workforce planning. DHS implemented all but one of these 
recommendations--to review and correct its coding of cybersecurity 
positions and assess the accuracy of position descriptions. Finally, 
filling vacancies could help ensure continued leadership commitment 
across DHS's mission areas.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee: I am pleased to be here today to discuss the 
importance of Department of Homeland Security (DHS) employee engagement 
and morale, the Department's progress thus far, and areas where 
challenges remain.
    DHS is the third-largest Cabinet-level department in the Federal 
Government, employing more than 240,000 staff in a broad range of jobs, 
including aviation and border security, emergency response, 
cybersecurity, and critical infrastructure protection. The DHS 
workforce is located throughout the Nation, carrying out activities in 
support of DHS's missions to counter terrorism and homeland security 
threats, secure United States borders, secure cyber space and critical 
infrastructure, preserve and uphold the Nation's prosperity and 
economic security, strengthen preparedness and resilience, and champion 
the DHS workforce and strengthen the Department.
    Since it began operations in 2003, DHS has faced challenges with 
low employee morale and engagement. Federal surveys have consistently 
found that DHS employees are less satisfied with their jobs than the 
Government-wide average of Federal employees. For example, DHS's 
employee satisfaction--as measured by the Office of Personnel 
Management Federal Employee Viewpoint Survey (FEVS), a tool that 
measures employees' perceptions of whether and to what extent 
conditions characterizing successful organizations are present in their 
agency, and the Partnership for Public Service's rankings of the Best 
Places to Work in the Federal Government--is consistently among the 
lowest for similarly-sized Federal agencies.
    As we stated in our 2015 report on employee engagement across the 
Federal Government, a number of studies of private-sector entities have 
found that increased levels of engagement result in better individual 
and organizational performance including increased employee performance 
and productivity; higher customer service ratings; fewer safety 
incidents; and less absenteeism and turnover.\1\ Studies of the public 
sector, while more limited, have shown similar benefits. For example, 
the Merit Systems Protection Board found that higher levels of employee 
engagement in Federal agencies led to improved agency performance, less 
absenteeism, and fewer equal employment opportunity complaints.\2\ As 
we reported in 2015, across the Government, key drivers of employee 
morale include holding constructive performance conversations, career 
development and training opportunities, work-life balance, an inclusive 
work environment, employee involvement, and communication from 
management. We also identified key lessons for improving employee 
engagement. These key lessons include using effective management 
practices to implement change, looking to other sources of data in 
addition to the FEVS to form a complete picture of employee engagement, 
and recognizing that improving engagement and organizational 
performance takes time, which may involve several efforts with effects 
seen at different points in time. Engagement is one component of 
employee morale.
---------------------------------------------------------------------------
    \1\ GAO, Federal Workforce: Additional Analysis and Sharing of 
Promising Practices Could Improve Employee Engagement and Performance, 
GAO-15-585 (Washington, DC: July 14, 2015).
    \2\ U.S. Merit Systems Protection Board, The Power of Federal 
Employee Engagement (Washington, DC: September 2008). Results were 
based on responses to the Merit System Protection Board's Merit 
Principles Survey, which asks employees about their perceptions of 
their jobs, work environments, supervisors and agencies and is 
administered approximately every 3 to 4 years.
---------------------------------------------------------------------------
    DHS employee morale and engagement concerns are one example of the 
challenges the Department faces in implementing its missions. In 2003, 
shortly after the Department was formed, we recognized that the 
creation of DHS was an enormous undertaking that could take years to 
implement. Failure to effectively address management challenges could 
have serious National security consequences. As a result, in 2003, 
shortly after the Department was formed, we designated Implementing and 
Transforming DHS as a high-risk area to the Federal Government. DHS 
subsequently made considerable progress in transforming its original 
component agencies into a single Cabinet-level department. As a result, 
in 2013, we narrowed the scope of the high-risk area to focus on 
strengthening DHS management functions, including human capital 
management, and changed the name of the high-risk area to Strengthening 
DHS Management Functions to reflect this focus.\3\ We continue to 
monitor DHS's work in this area--including work to address employee 
morale and engagement--and regularly meet with DHS to discuss progress.
---------------------------------------------------------------------------
    \3\ The 5 management functions included in the Strengthening DHS 
Management Functions high-risk area are acquisition management, 
information technology management, financial management, human capital 
management, and management integration. The 5 criteria for removal from 
the high-risk list are: (1) A demonstrated strong commitment and top 
leadership support to address the risks; (2) the capacity--the people 
and other resources--to resolve the risks; (3) a corrective action plan 
that identifies the root causes and identifies effective solutions; (4) 
a program instituted to monitor and independently validate the 
effectiveness and sustainability of corrective measures; and (5) the 
ability to demonstrate progress in implementing corrective measures.
---------------------------------------------------------------------------
    My testimony today discusses our past and on-going work monitoring 
human capital management and employee morale at DHS and select work on 
employee engagement across the Government. This statement is based on 
products we issued from September 2012 through May 2019 as well as our 
on-going efforts in 2019 to monitor employee morale at DHS as part of 
our high-risk work.\4\ For our products we analyzed DHS strategies and 
other documents related to the Department's efforts to address its 
high-risk area, interviewed DHS officials, conducted analyses of FEVS 
data, and interviewed officials from other Federal agencies that 
achieved high employee engagement scores, among other things. We 
conducted the work on which this statement is based in accordance with 
generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \4\ We issue an update to the High-Risk List every 2 years at the 
start of each new session of Congress. Our most recent update was 
issued in March 2019. See GAO, High-Risk Series: Substantial Efforts 
Needed to Achieve Greater Progress on High-Risk Areas, GAO-19-157SP 
(Washington, DC: Mar. 6, 2019).
---------------------------------------------------------------------------
dhs has taken steps to improve its employee engagement scores but still 
                falls below the government-wide average
    In connection with the Strengthening DHS Management Functions high-
risk area, we monitor DHS's progress in the area of employee morale and 
engagement. In 2010, we identified, and DHS agreed, that achieving 30 
specific outcomes would be critical to addressing the challenges within 
the Department's high-risk management areas. These 30 outcomes are the 
criteria by which we gauge DHS's demonstrated progress. We rate each 
outcome on a scale of not-initiated, initiated, partially addressed, 
mostly addressed, or fully addressed. Several of these outcome criteria 
relate to human capital actions needed to improve employee morale. 
Specifically, we monitor DHS's progress to:
  <bullet> seek employees' input on a periodic basis and demonstrate 
        measurable progress in implementing strategies to adjust human 
        capital approaches;
  <bullet> base hiring decisions, management selections, promotions, 
        and performance evaluations on human capital competencies and 
        individual performance;
  <bullet> enhance information technology security through improved 
        workforce planning of the DHS cybersecurity workforce; and
  <bullet> improve DHS's FEVS scores related to employee engagement.
    Since we began monitoring DHS's progress on these outcomes, DHS has 
worked to strengthen employee engagement through several efforts both 
at DHS headquarters and within its component agencies. In this 
statement, we discuss 9 recommendations related to DHS employee 
engagement and workforce planning, 8 of which have been implemented by 
the Department. Within DHS, the Office of the Chief Human Capital 
Officer (OCHCO) is responsible for implementing policies and programs 
to recruit, hire, train, and retain DHS's workforce. As the Department-
wide unit responsible for human capital issues within DHS, OCHCO also 
provides guidance and oversight related to morale issues to the DHS 
components.
    Seeking employees' input and demonstrating progress to adjust human 
capital approaches.--DHS, OCHCO, and the components have taken action 
to use employees' input from the FEVS to inform and implement 
initiatives targeted at improving employee engagement. For example, in 
2017 and 2018 DHS implemented our 2 recommendations for OCHCO and DHS 
components to establish metrics of success within their action plans 
for addressing employee satisfaction problems and to better use these 
plans to examine the root causes of morale challenges.\5\ DHS 
components have continued to develop these employee engagement action 
plans and several components report implementing initiatives to enhance 
employee engagement. For example, the U.S. Secret Service's action plan 
details a sponsorship program for all newly-hired and recently-
relocated employees. In addition, one division of U.S. Immigration and 
Customs Enforcement (ICE) used FEVS survey data to identify a need for 
increased engagement between employees and component leadership. ICE's 
employee action plan includes goals with milestones, time lines, and 
metrics to improve this engagement through efforts such as leadership 
town halls and leadership site visits.
---------------------------------------------------------------------------
    \5\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
    At the headquarters level, DHS and OCHCO have also established 
employee engagement initiatives across the Department. For example, DHS 
established initiatives for employees and their families that aim to 
increase awareness and access to support programs, benefits, and 
resources. Through another initiative--Human Resources (H.R.) Academy--
DHS provides education, training, and career development opportunities 
to human resource professionals within the Department. DHS uses an 
Employee Engagement Steering Committee to guide and monitor 
implementation of these DHS-wide employee engagement initiatives. As a 
result of these steps, among other actions, we have considered this 
human capital outcome area fully addressed since 2018.
    Basing hiring decisions and promotions on competencies and 
performance.--OCHCO has conducted audits to better ensure components 
are basing hiring decisions and promotions on human capital 
competencies and individual performance and we have considered this 
outcome fully addressed since 2017. Our past work has highlighted the 
importance of selecting candidates based on qualifications, as doing 
otherwise can negatively affect morale.\6\ Working to ensure that 
components' human capital decisions are based on performance and 
established competencies helps create a connection between individual 
performance and the agency's success.
---------------------------------------------------------------------------
    \6\ GAO, U.S. Marshals Service: Additional Actions Needed to 
Improve Oversight of Merit Promotion Process and Address Employee 
Perceptions of Favoritism, GAO-18-8 (Washington, DC: Oct. 17, 2017).
---------------------------------------------------------------------------
    Enhancing information technology security through improved 
workforce planning for cybersecurity positions.--In February 2018, we 
made 6 recommendations to DHS to take steps to identify its position 
and critical skill requirements among its cybersecurity workforce.\7\ 
Since then, DHS has implemented all 6 recommendations. For example, in 
fiscal year 2019, regarding its cybersecurity position identification 
and coding efforts, we verified that DHS had identified individuals in 
each component who are responsible for leading those efforts, developed 
procedures, established a process to review each component's 
procedures, and developed plans for reporting critical needs.
---------------------------------------------------------------------------
    \7\ GAO, Cybersecurity Workforce: Urgent Need for DHS to Take 
Actions to Identify Its Position and Critical Skill Requirements, GAO-
18-175 (Washington, DC: Feb. 6, 2018).
---------------------------------------------------------------------------
    However, DHS has not yet implemented a recommendation we made in 
March 2019 to review and correct its coding of cybersecurity positions 
and assess the accuracy of position descriptions.\8\ Specifically, we 
stated that DHS had not correctly categorized its information 
technology/cybersecurity/cyber-related positions. We noted that having 
inaccurate information about the type of work performed by 28 percent 
of the Department's information technology/cybersecurity/cyber-related 
positions is a significant impediment to effectively examining the 
Department's cybersecurity workforce, identifying work roles of 
critical need, and improving workforce planning. DHS officials stated 
that they plan to implement this recommendation by March 2020. As a 
result, this outcome remains mostly addressed. Until DHS accurately 
categorizes its positions, its ability to effectively identify critical 
staffing needs will be impaired.
---------------------------------------------------------------------------
    \8\ GAO, Cybersecurity Workforce: Agencies Need to Accurately 
Categorize Positions to Effectively Identify Critical Staffing Needs, 
GAO-19-144 (Washington, DC: Mar. 12, 2019).
---------------------------------------------------------------------------
    Improving FEVS scores on employee engagement.--Since our last High-
Risk report in March 2019, DHS has demonstrated additional progress in 
its employee engagement scores, as measured by the FEVS Employee 
Engagement Index (EEI). The EEI is 1 of 3 indices OPM calculates to 
synthesize FEVS data.\9\ The EEI measures conditions that lead to 
engaged employees and is comprised of 3 sub-indices related to 
employees' views on leadership, supervisors, and intrinsic work 
experience. As a result of continued improvement on DHS's EEI score, we 
have moved this outcome rating from partially addressed to mostly 
addressed based on DHS's 2019 score. As shown in figure 1, DHS 
increased its EEI score across 4 consecutive years, from a low of 53 
percent in 2015 to 62 percent in 2019. In particular, DHS improved its 
score by 2 points between 2018 and 2019 while the Government average 
remained constant over the same period. With its 2019 score, DHS also 
regained the ground that it lost during an 8-point drop between 2010 
and 2015.\10\
---------------------------------------------------------------------------
    \9\ In addition to the EEI, OPM calculates 2 other indices. The New 
Inclusion Quotient, referred to as New IQ, summarizes information about 
inclusivity in the workplace, and Global Satisfaction is a combination 
of employees' satisfaction with their job, their pay, and their 
organization, plus their willingness to recommend their organization as 
a good place to work.
    \10\  In our monitoring of DHS's progress on this outcome, we 
established 2010 as the benchmark year when we developed and DHS agreed 
upon the outcomes that we monitor.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While DHS has made progress in improving its scores including 
moving toward the Government average, it remains below the Government 
average on the EEI and on other measures of employee morale. For 
example, in 2019 DHS remained 6 points below the Government-wide 
average for the EEI. In addition to the EEI and other indices OPM 
calculates, the Partnership for Public Service uses FEVS data to 
produce an index of the Best Places to Work in the Federal Government. 
The Partnership for Public Service's analysis of FEVS data indicates 
low levels of employee satisfaction and commitment for DHS employees 
relative to other large Federal agencies. In 2019, the Partnership for 
Public Service ranked DHS 17th out of 17 large Federal agencies for 
employee satisfaction and commitment.\11\
---------------------------------------------------------------------------
    \11\ Partnership for Public Service and Boston Consulting Group, 
The Best Places to Work in the Federal Government. The Partnership for 
Public Service's ranking cited here is composed of rankings of large 
agencies, defined as agencies with more than 15,000 employees.
---------------------------------------------------------------------------
    Across the Department, employee satisfaction scores vary by 
component. Some DHS components have EEI scores above the Government 
average and rank highly on the Partnership for Public Service's index. 
For example, the U.S. Coast Guard and U.S. Citizenship and Immigration 
Services have EEI scores of 76 and 74, respectively, and rank 85th and 
90th, respectively, out of 420 subcomponent agencies on the Partnership 
for Public Service's index. Further, some DHS component agencies have 
improved their scores in recent years. The U.S. Secret Service raised 
its EEI score 7 points between 2018 and 2019, and it moved from the 
last place among all subcomponent agencies on the Partnership for 
Public Service's Ranking in 2016 to 360th out of 420 subcomponent 
agencies in 2019. However, other DHS component agencies continue to 
rank among the lowest across the Federal Government in the Partnership 
for Public Service rankings of employee satisfaction and commitment. 
For example, in 2019 out of 420 subcomponent agencies across the 
Federal Government, the DHS Countering Weapons of Mass Destruction 
office ranked 420th, the DHS Office of Intelligence and Analysis ranked 
406th, and the Transportation Security Administration ranked 398th for 
employee satisfaction and commitment. As a result, continuing to 
increase employee engagement and morale remains important to 
strengthening DHS's management functions and ability to implement its 
missions.
    DHS employee concerns about senior leadership, among other things, 
is one area that negatively affects DHS's overall employee morale 
scores. In 2015, we identified effective management practices agencies 
can use to improve employee engagement across the Government.\12\ One 
of these practices is the direct involvement of top leadership in 
organizational improvement efforts.\13\ When top leadership clearly and 
personally leads organizational improvement efforts, it provides an 
identifiable source for employees to rally around and helps processes 
stay on course. A DHS analysis of its 2012 FEVS scores indicated DHS 
low morale issues may persist because of employee concerns about senior 
leadership and supervisors, among other things, such as whether their 
talents were being well-used. Within the 2019 FEVS results for both DHS 
and Government-wide, leadership remains the lowest of the 3 sub-indices 
of the EEI. In addition, for several years DHS components have 
identified several root causes of engagement scores. For example, in 
2019, the Transportation Security Administration identified the 
performance of managers, time constraints and understaffing, and lack 
of manager and leadership accountability for change as root causes of 
the component's engagement scores in recent years. Another component, 
U.S. Citizenship and Immigration Services, identified in 2019 that the 
areas of leadership performance, accountability, transparency, and 
training and development opportunities were 2018 engagement score root 
causes.
---------------------------------------------------------------------------
    \12\ GAO-15-585.
    \13\ Other effective management practices included applying 
policies consistently, creating a line of sight between the agency's 
mission and the work of each employee, and reaching out to employees to 
obtain insight into their FEVS scores or to inform other improvement 
efforts.
---------------------------------------------------------------------------
    We have previously reported that DHS's top leadership, including 
the Secretary and Deputy Secretary, have demonstrated commitment and 
support for addressing the Department's management challenges. 
Continuing to identify and address the root causes of employee 
engagement scores and addressing the human capital management 
challenges we have identified in relation to the DHS management high-
risk area could help DHS maintain progress in improving employee 
morale. Implementing our recommendation to review and correct DHS 
coding of cybersecurity positions and assess the accuracy of position 
descriptions will assist the Department in identifying critical 
staffing needs. In addition, as we reported in May 2019, vacancies in 
top leadership positions could pose a challenge to addressing aspects 
of DHS's high-risk area, such as employee morale.\14\ There are 
currently acting officials serving in 10 positions requiring Senate 
confirmation.\15\ Filling vacancies--including top DHS leadership 
positions and the heads of operational components--with confirmed 
appointees, as applicable, could help ensure continued leadership 
commitment across DHS's mission areas.\16\ We will continue to monitor 
DHS's progress in strengthening management functions, and may identify 
additional actions DHS leadership could take to improve employee morale 
and engagement.
---------------------------------------------------------------------------
    \14\ GAO, Department of Homeland Security: Continued Leadership Is 
Critical to Addressing a Range of Management Challenges, GAO-19-544T 
(Washington, DC: May 1, 2019).
    \15\ Specifically, as of December 18, 2019, the following positions 
remained vacant: Secretary, deputy secretary, under secretary for 
management, under secretary for science and technology, chief financial 
officer, general counsel, commissioner of U.S. Customs and Border 
Protection, director of U.S. Immigration and Customs Enforcement, 
director of U.S. Citizenship and Immigration Services, and 
administrator of the Federal Emergency Management Agency.
    \16\ The DHS operational components are the Cybersecurity and 
Infrastructure Security Agency, the Federal Emergency Management 
Agency, Federal Law Enforcement Training Center, Transportation 
Security Administration, U.S. Citizenship and Immigration Services, 
U.S. Coast Guard, U.S. Customs and Border Protection, U.S. Immigration 
and Customs Enforcement, and U.S. Secret Service.
---------------------------------------------------------------------------
    In conclusion, DHS has made notable progress in the area of human 
capital management, specifically in improving employee engagement and 
morale, but still falls behind other Federal agencies. It is essential 
for DHS to continue improving employee morale and engagement given 
their impact on agency performance and the importance of DHS's 
missions. Continued senior leadership commitment to employee engagement 
efforts and filling critical vacancies could assist DHS in these 
efforts.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee, this completes my prepared statement, I would be 
happy to respond to any questions that you may have at this time.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Mr. Stier to summarize his statement for 5 
minutes.

  STATEMENT OF MAX STIER, PRESIDENT AND CEO, PARTNERSHIP FOR 
                         PUBLIC SERVICE

    Mr. Stier. Thank you so much. I can't imagine better 
opening statements than both your, Chairwoman Torres Small, and 
your, Ranking Member Crenshaw. I thought they were pitch 
perfect and exactly right.
    Members of the committee, this is fantastic that you are 
having this hearing. I want to start by highlighting that I 
think Ms. Bailey is easily one of the best chief human capital 
officers across the entire Government and is doing fabulous 
work.
    One of the most important things I can advocate for is 
continued focus on the good and not just the bad. If you ask 
root causes, one of the real challenges we have in Government 
is lots of infrastructure to find problems and almost no effort 
to find the good things that are actually answers to those 
problems.
    So the more you can do to surface the good, the more you 
will actually do to address the bad. I can come back to that 
later. I would love to do so if that is possible.
    Lots of good things are happening. Your numbers are exactly 
right. Ms. Bailey is correct, that since 2015 the Department on 
our rankings has come up 9 points. All those things need to be 
encouraged and reinforced.
    I want to focus, though, on 10 ideas that can make it even 
better. So finding ways for us to move even more aggressively 
in some of the areas that I think would make a very big 
difference.
    Part of it is building on things that are already there. 
One component that you have heard talk about already, Secret 
Service, I want to point to leadership there. So it turned 
around when Tex Alles became the director of the Secret 
Service. He is now the acting under secretary for management. 
No one better for that position. He turned around Secret 
Service. He is a great contributor, and I think there is a lot 
more that he could do.
    So 10 ideas for you, if I might, beginning with Congress 
itself and what you might be able to focus on. It is hearings 
like these. You heard from Chris, it would be fantastic for you 
to do this on an annual basis. If there is a regular set of 
hearings, a regular tempo, leadership is going to expect this. 
They know that this is a priority from your perspective, and 
then they will pay more attention to that.
    The normal course, it is one of the powers that you have in 
your oversight is to direct attention and to focus on the good 
things. So, yes, on the subcomponents and what is working in 
the different parts of Government.
    No. 2 would be to hold leaders accountable. So, again, on 
the political side, one of the challenges is most political 
appointees are selected because they are policy experts and not 
necessarily have a lot of management expertise. In fact, having 
performance plans for political appointees as there are for 
career employees would be an example of things that you could 
use to help direct them to things that are management-oriented 
and hold them accountable.
    No. 3, we need to provide continuity in the senior 
management ranks. That doesn't exist today. So I mentioned Tex, 
fantastic guy. He is the fifth, if I count correctly, fifth 
under secretary for management in 5 years.
    It is very difficult to make forward progress on difficult 
management issues without continuity. There are way too many 
Senate-confirmed positions, way too many political appointees.
    We ought to be creative here. Think about IGs. They don't 
turn over every administration. We could think about 
operational versus policy positions amongst the political 
ranks, and that would make a very big difference.
    So I posit to you that creating continuity in the 
management positions would have phenomenal impact and be very 
powerful. If you think about GAO, they have got a 15-year term. 
Gene Dodaro is doing an amazing job. That is the kind of thing 
you need in the management positions.
    No. 4, you need to provide budget stability, and both of 
you have worked on this issue. Shutdowns are the worst. It is 
craziness, burning down your own house. We have got to change 
that, got to prevent that. But we also don't need CRs, and that 
is something again in Congress' house.
    No. 5, you need to support investments in leadership 
development. That, again, is the name of the game. The 
political leaders, yes. The career folks are the ones that are 
there day-in, day-out, and they need to be invested in in ways 
that don't happen very much. Coast Guard is a great example.
    Now, No. 6, really fast, for the administration and DHS. 
There is work to do to continue to improve metrics. I think 
they could be doing poll surveys. One of the challenges with 
the FEVS is it comes real late and can be improved, I think.
    No. 7, we need to ensure that those senior leaders actually 
have management experience. They are running huge 
organizations, again, often selected for policy expertise. They 
need to be on-boarded differently.
    No. 8, we need to enhance the leadership development of the 
career work force.
    No. 9, we need to work on that culture of recognition, 
again, to pull up the good things. More ought to be done around 
that.
    No. 10, I want to end on this piece, which is, you pointed 
this out, Congressman Crenshaw, I mean, you need to have 
Presidential appointee-confirmed people in place in greater 
numbers. Right now, DHS is the agency with the fewest number of 
Senate-confirmed positions in place. Even though the FEMA 
director was confirmed today, that created another vacancy in 
the organization. So they are at 41 percent.
    Very, very challenging for any organization. Phenomenal 
people can be in those jobs, but they are the substitute 
teacher if they are in an acting capacity. So we need to look 
at that issue as well.
    Thank you.
    [The prepared statement of Mr. Stier follows:]
                    Prepared Statement of Max Stier
                            January 14, 2020
    Good afternoon, Chairwoman Torres Small, Ranking Member Crenshaw, 
and Members of the subcommittee. Thank you for the opportunity to 
participate in today's important hearing on morale at the Department of 
Homeland Security. I am Max Stier, president and CEO of the Partnership 
for Public Service, a nonpartisan, nonprofit organization working to 
inspire a new generation to serve and transform the way Government 
works through leadership development, Government reform, and employee 
engagement.
    I want to start by thanking you for holding this hearing on 
employee engagement and morale, and how they contribute to agency 
performance. This subcommittee has a history of bipartisan interest in 
the challenges facing the Department's nonpartisan civil service and 
how Congress can help the Department accomplish its varied and 
difficult missions. Your inquiry today adds to that legacy and 
contributes to better oversight and a deeper understanding of the 
management challenges facing the Department of Homeland Security and 
the rest of our Government.
 ``best places to work in the federal government'' and the importance 
                         of employee engagement
    The Partnership produces the annual Best Places to Work in the 
Federal Government rankings in collaboration with the Boston 
Consulting Group (BCG). The rankings are based on the results of the 
Federal Employee Viewpoint Survey (FEVS) administered by the Office of 
Personnel Management, as well as other agency-specific surveys that are 
comparable to FEVS. We rank agencies by size and analyze the key 
drivers of employee engagement--in other words, the factors that have 
the biggest impact on how employees view the agencies in which they 
work. The rankings also shed light on how agencies fare in different 
categories that define the employee experience, including effective 
leadership, pay, training, innovation, and performance-based rewards 
and advancement.
    Employee engagement is not just about happy employees. Higher 
scores in employment engagement equate to better performance and 
higher-quality service. According to a Gallup analysis of more than 
82,000 business units spanning 230 organizations, those with improved 
employee engagement scores had 41 percent less absenteeism, 24 percent 
less turnover, 17 percent more productivity, and 70 percent fewer 
employee safety incidents.\1\ With such an impact on the workforce it 
is critical for leadership at the political and career levels to be 
focused on engagement at the agencies they lead. The Best Places 
rankings provide a mechanism for holding agency leaders accountable for 
the health of their organizations, serve as early warning signs for 
agencies in trouble, and shine a spotlight on agency successes that can 
be replicated elsewhere.
---------------------------------------------------------------------------
    \1\ Gallup, ``The Relationship Between Engagement at Work and 
Organizational Outcomes,'' 2016. Retrieved from https://
news.gallup.com/reports/191489/q12-meta-analysis-report-2016.aspx.
---------------------------------------------------------------------------
    The 2019 Best Places to Work rankings reflect the views of over 
880,000 civil servants from 490 Federal agencies and their 
subcomponents on a wide range of workplace topics. Government-wide, 
2019 saw a 0.5-point decrease from the 2018 rankings, bringing 
Government's overall engagement score to 61.7 out of 100. This was a 
modest drop despite a tumultuous time for our Nation's public 
servants--a time when about 800,000 of the 2 million Federal employees 
were affected by a lengthy Government shutdown, there were a number of 
critical leadership vacancies across the Government, and many agencies 
had to deal with a variety of political headwinds.
    Despite these circumstances, the data show modest but meaningful 
improvements Government-wide in employee attitudes in 8 of 10 
categories that measure the work experience. Government-wide employee 
views on training and development, and on performance-based rewards and 
advancement, both rose by 0.8 points. Government-wide scores on 
effective leadership, which encompasses employee views of their 
supervisors, senior leaders, fairness in the workplace and individual 
empowerment, rose by 0.3 points. Categories that declined Government-
wide were pay, down 0.4 points, and support for diversity, which 
dropped 0.2 points.
    The 2019 rankings also show that the Federal Government still 
significantly underperforms the private sector when it comes to 
employee engagement. In 2019, the Government's score lagged 15.3 points 
behind the private sector engagement score.\2\ Only 11 of the 
Government's 70 large, midsize, and small agencies included in the Best 
Places rankings scored above the private sector average this year, 
including NASA, the Federal Trade Commission, and the Peace Corps.
---------------------------------------------------------------------------
    \2\ The private-sector data is based on nearly 6.5 million employee 
survey responses from organizations in a wide variety of industries, 
gathered by the employee research firm Mercer/Sirota.
---------------------------------------------------------------------------
                         2019 rankings for dhs
    Based on our methodology, the Department of Homeland Security 
experienced a 0.8-point decrease from the 2018 rankings (from 53.1 to 
52.3 out of 100), and the Department ranks 17 out of 17 large agencies 
in overall engagement, maintaining its dubious distinction as the 
lowest-ranking large agency since 2012. The Department's highest score 
was 58.6 out of 100 in 2010, which means its 2019 score represents an 
overall 11 percent decline from their high mark in 2010. The Department 
also ranks at the bottom in all but one of 14 categories and 
subcategories that we measure, which include effective leadership, 
employee skills-mission match, pay, support for diversity, and training 
and development.
Some good news
    Despite areas of concern, a few points of perspective give hope. 
The 0.8 decline is a small tick down in a survey that was conducted on 
the heels of a very trying time for the Department. Eighty-six percent 
of the Department's employees continued to work without pay throughout 
the 35-day Government shutdown.\3\ This shows the mission commitment 
and the resiliency of the workforce, and our Nation owes a deep 
gratitude to these DHS employees who kept their focus and kept our 
country safe despite the difficult circumstances for them and their 
families.
---------------------------------------------------------------------------
    \3\ Testimony of Angie Bailey, Chief Human Capital Officer, 
Department of Homeland Security. Hearing on ``Solutions to Improve 
Federal Hiring,'' Senate Committee on Homeland Security and 
Governmental Affairs Subcommittee on Regulatory Affairs and Federal 
Management, July 30, 2019. Retrieved from https://www.hsgac.senate.gov/
imo/media/doc/Bailey%20TESTI- MONY1.pdf.
---------------------------------------------------------------------------
    Like the Government-wide score, the 2019 DHS score is essentially a 
continuation of the status quo following 3 consecutive years of 
improvement that began in 2015. And in the 14 categories we rank, the 
Department did see slight improvements in all but 2--employee skills-
mission-match and pay, 2 categories which traditionally, after 
leadership, are the major drivers of engagement. The Department also 
increased its score by 1.2 points in the category of effective 
leadership subcategory of senior leaders.
    There are several subcomponent successes that should be celebrated:
  <bullet> The Office of Intelligence and Analysis saw a 13.1 point 
        increase in 2019 and the Office of the Secretary jumped 6.9 
        points.
  <bullet> U.S. Citizenship and Immigration Services, which ranks 90 of 
        420 subcomponents, has an index score of 72.9 of 100 and has 
        improved 14 points from its 2005 low.
  <bullet> The U.S. Coast Guard improved its score, rising 2.7 points. 
        Of all 420 subcomponents across Government included in the 
        rankings, the Coast Guard remains the highest-ranked DHS 
        subcomponent--85th of 420 subcomponents.
  <bullet> The U.S. Secret Service is worth highlighting for its 8.9 
        point jump in 2019 for an index score of 52.9 of 100, a 61 
        percent improvement from its 2016 low score of 32.8.
  <bullet> The Cybersecurity and Infrastructure Security Agency has 
        improved in 5 of the last 6 years, from 36.2 in 2013 to 51.5 in 
        2019.
    The Department should also be commended for its Employee and Family 
Readiness Initiative, which is a new suite of programs to address 
employee needs in areas such as stress, mental health, personal 
relationships, and financial concerns.\4\ Many DHS employees face 
extremely challenging circumstances in the workplace, which can also 
create challenges in their personal lives. Helping both employees and 
their families cope with these challenges should help improve 
engagement and retention.
---------------------------------------------------------------------------
    \4\ See Testimony of Angie Bailey, Chief Human Capital Officer, 
Department of Homeland Security. Hearing on ``Solutions to Improve 
Federal Hiring,'' Senate Committee on Homeland Security and 
Governmental Affairs Subcommittee on Regulatory Affairs and Federal 
Management, July 30, 2019.
---------------------------------------------------------------------------
    The Department is also forward-leaning in its approach to hiring, 
looking for smarter ways to bring in needed talent, while maintaining 
merit system principles and making it easier for the Department to hire 
veterans. This speaks directly to a major frustration heard in FEVS 
responses, where only 36.2 percent of DHS employees agree that their 
work unit is able to recruit people with the right skills, even lower 
than the disappointing 41.9 percent of respondents who agreed 
Government-wide.
Areas of concern
    There is clearly much more work to be done, but progress is 
possible. If every DHS subcomponent in this year's rankings had reached 
its previous all-time high score, DHS's Best Places to Work score in 
2019 would have been approximately 60.0 out of 100--a 15 percent 
improvement upon its actual score this year. DHS would have jumped up 
to rank 14th out of the 17 large agencies.
    Explanations for why DHS morale is low include that it is a large 
agency, with disparate components, and with a workforce that operates 
under stressful conditions. These undoubtedly are all major challenges, 
but they can be overcome. The Department of Veterans Affairs, larger 
than DHS, ranks 6th among large agencies in the Best Places rankings, 
with a score of 65.3. The Department of Commerce, also consisting of 
many distinct components, is the 4th-ranked large agency, with a score 
of 69.6. The intelligence community works under stressful conditions 
and claims the third spot among large agencies, with a score of 69.9.
    Areas of concern for DHS in 2019 include:
  <bullet> The Office of Countering Weapons of Mass Destruction (CWMD), 
        which has a critical mission with no margin for error, ranks at 
        the bottom of all subcomponents across the Government--420 out 
        of 420, with a score of only 18.1 out of 100.
  <bullet> The Office of the Inspector General declined 4.9 points, 
        Immigration and Customs Enforcement declined 3.7 points, and 
        the Federal Law Enforcement Training Center declined 3.3 
        points.
  <bullet> Customs and Border Protection ranks 380th among the 420 
        subcomponents, and its score declined 2.1 points. The score is 
        up 9 points from its 2015 low, but is still down 22 percent 
        from its best score of 63.3 in 2010.
  <bullet> TSA's score dropped 1.1 points, from 45.7 to 44.6. TSA's 
        score is up 9.1 points or 25.6 percent since 2016, but it has 
        consistently struggled, never exceeding its highest score of 
        51.3 in 2010.
    FEVS responses show that the Government, on average, struggles with 
performance management, and DHS struggles a little more than most. When 
asked if they agreed that, in their work unit, steps are taken to deal 
with a poor performer who cannot or will not improve, 27.3 percent at 
DHS agreed, compared to 30.2 percent Government-wide. Only 27.5 percent 
at DHS agreed that promotions in their unit are based on merit, 
compared to 36.2 percent Government-wide.
    The Department also needs to make progress on creating a culture of 
innovation. The Department's score in the Best Places innovation 
category was up 0.9 but still last among large agencies in this 
category. For context, DHS lags a full 26.4 points behind NASA, the 
leader in this category. When asked whether innovation and creativity 
are rewarded, only 32.7 percent of DHS respondents agree, compared to 
41.4 percent Government-wide. NASA also had the highest score on this 
question with 70 percent agreeing.
    Also, DHS trails even further behind the Government overall on 
engagement in comparison to the private sector, lagging 24.7 points 
below the private-sector engagement score. This is troubling, given 
that DHS must compete with the broader labor market for specialized 
talent in fields such as cybersecurity.
                         why is dhs morale low?
    You have asked me to comment on why DHS has been consistently low 
over the entire life span of the Department. I will focus my response 
on 3 areas--performance metrics, Congressional stewardship, and 
leadership.
Data and Performance Metrics
    While the FEVS is a valuable resource for leaders--from Cabinet 
secretaries to front-line supervisors--it is only the beginning of the 
conversation. The annual survey and the Best Places data highlight 
areas of success or concern but provide little insight into the root 
causes for changes in satisfaction or the preferences and motivations 
of a diverse and multi-generational workforce. John Kamensky of the IBM 
Center for the Business of Government has similarly noted that agencies 
have plenty of data but are ``information poor,''\5\ meaning data is 
most helpful when it can be turned into useful insights that inform 
decision making.
---------------------------------------------------------------------------
    \5\ Kamensky, John. ``Government Is Data Rich, But Information 
Poor.'' Editorial. Government Executive, June 12, 2018. Retrieved from 
https://www.govexec.com/management/2018/06/government-data-rich-
information-poor/148914/.
---------------------------------------------------------------------------
    Also, since FEVS rankings are administered annually they only 
capture a single snapshot of agency health. The 2019 survey was 
administered in 2 waves, beginning May 13 and May 20,\6\ meaning that 
employee responses reflect morale and views during that time and can 
only measure the questions asked. And agencies typically don't get 
their FEVS results until many months after the survey.
---------------------------------------------------------------------------
    \6\ Office of Personnel Management, ``2019 Government-wide 
Management Report.'' Retrieved from https://www.opm.gov/fevs/reports/
governmentwide-reports/governmentwide-management-report/governmentwide-
report/2019/2019-governmentwide-management-report.pdf.
---------------------------------------------------------------------------
    To fully understand the factors that contribute to employee morale 
and performance, agency leaders would benefit from a rich and diverse 
menu of data, measures and information. The FEVS is one tool, but it 
should be augmented with others like pulse surveys, focus groups, town 
halls and interviews to better understand the complexities of the 
employee experience behind the numbers. Exit interviews provide 
valuable insight into the reasons people leave an organization. 
Measures of hiring effectiveness provide insight into whether an agency 
is able to recruit the talent it needs, and demographic information 
helps determine whether an agency is employing and retaining a diverse 
workforce. Customer satisfaction data are a valuable indicator of how 
successfully agencies are serving the public, and trends in budget and 
spending will reflect areas of investment and emphasis over time. All 
of this and more should be leveraged to provide leaders with the 
performance insights needed to make smart decisions for the Department 
and its workforce. It is also important for Congress to use data, in 
all its forms, to inform oversight and legislative activities.
    Links between employee engagement scores and other performance 
metrics are not always evident to agencies, but when they are, they can 
be very powerful. For example, in our analysis of data from 150 VA 
medical centers, over a 3-year period, we found that medical centers 
with stronger employee engagement had higher patient satisfaction, 
better call-center performance and lower turnover among registered 
nurses.\7\ With 89.3 percent of all Federal employees, and 86.9 percent 
of DHS employees, believing that their work is important, it stands to 
bear that employee engagement and customer service are mutually 
reinforcing.
---------------------------------------------------------------------------
    \7\ Partnership for Public Service and BCG, ``A Prescription for 
Better Performance: Engaging Employees at VA Medical Centers,'' March 
2019. Available at https://ourpublicservice.org/wp-content/uploads/
2019/03/BPTW18_VA-issue-brief.pdf.
---------------------------------------------------------------------------
    The VA call centers mentioned in our analysis are one of 25 Federal 
Government services that have been identified by the Office of 
Management and Budget as having a high impact on the public.\8\ DHS 
provides 4 of these ``high-impact'' services--airport security 
checkpoints (TSA), emergency and disaster assistance (FEMA), 
immigration services (USCIS) and traveler services like the Trusted 
Traveler Program (CBP). At the VA, strengthening employee engagement 
has been a critical component of their strategy to improve services to 
veterans, and partially due to these efforts, trust in the VA among 
veterans has risen dramatically over the last few years. DHS components 
have a similar opportunity to look holistically at a variety of data 
sources to understand how employee engagement scores affect other key 
performance measures.
---------------------------------------------------------------------------
    \8\ General Services Administration and the Office of Management 
and Budget, ``Meet 25 of the nation's highest impact service 
providers,'' December 2019. Retrieved from https://www.performance.gov/
cx/.
---------------------------------------------------------------------------
    In the final analysis, data are a great tool to identify areas of 
success or concern, and in turn this points agency leaders and Congress 
where attention is most needed--but data alone does not solve problems. 
Agencies, agency leaders and their Congressional committees need to use 
the data to take action. This is especially true with respect to the 
FEVS, where only 35.5 percent of employees at DHS believe that the 
survey will be used to make meaningful improvements.
                       congressional stewardship
    Congress also has responsibility for Federal employee morale 
through its stewardship of Federal agencies.
    Again, the overall FEVS score for DHS, with only a slight drop, 
shows a remarkable resiliency of the Department's workforce in the 
aftermath of a shutdown. Undoubtedly, though, budget instability--
shutdowns, threats of shutdowns, and continuing resolutions--are 
detrimental to agencies.
    Since its inception, DHS has been subject to 3 shutdowns--one of 16 
days in fiscal year 2014, one of 2 days in fiscal year 2018, and the 
35-day shutdown in fiscal year 2019. The Department has also operated 
under 40 continuing resolutions over the last 10 years,\9\ many of 
which have come to the brink of another shutdown until Congress 
extended the life of the continuing resolution at the last minute.
---------------------------------------------------------------------------
    \9\ See Congressional Research Service, ``Continuing Resolutions: 
Overview of Components and Practices,'' April 19, 2019, pp. 10-14, 
retrieved at https://crsreports.Congress.gov/product/pdf/R/R42647. In 
addition to the continuing resolutions identified in this report, there 
have been 2 continuing resolutions in fiscal year 2020.
---------------------------------------------------------------------------
    This constant budget instability requires leaders, managers, and 
employees at all levels to divert attention from mission accomplishment 
and management priorities (including employee engagement) to 
contingency planning. Continuing resolutions make long-term planning 
impossible, and even the threat of a Government shutdown results in a 
huge waste of taxpayer dollars as agencies must notify grantees, 
partners, vendors, and their own employees to prepare.
    Following the most recent Government shutdown, many lawmakers 
proposed or supported legislation to make Government shutdowns a thing 
of the past. Ideas include automatic continuing resolutions when 
Congress fails to pass appropriations bills on time, keeping Members of 
Congress in Washington until appropriations bills are passed or making 
appropriations bills the only business in order. We encourage you in 
these efforts and believe that on-time appropriations and predictable 
funding would improve morale at the Department and encourage innovation 
and mission accomplishment.
    The over-abundance of committees with jurisdiction over DHS also 
complicates the management of the Department. With over 100 committees 
and subcommittees having jurisdiction over the Department, its leaders 
often receive conflicting directives that hinder the functioning of the 
Department. This problem was recognized as early as the 9/11 
Commission, which recommended consolidation of jurisdiction, but the 
oversight of the Department today remains as splintered as when its 
doors opened in 2003.
Leadership
    Since the Best Places rankings began in 2003, one thing has been 
clear--leadership is the No. 1 driver of employee engagement. Good 
leaders motivate and advocate for their employees, build trust and 
create the conditions necessary for employees to perform at their best.
    In 2019, the Partnership developed the Public Service Leadership 
Model. The model identifies the core values that leaders must 
prioritize and the critical competencies they must master to achieve 
their agencies' missions and desired impact. These include setting a 
vision, empowering others and being accountable for results. We were 
proud to create this model with a bipartisan group of distinguished 
leaders from the public and private sectors, and in the months to come 
we hope to work with Congress, the Executive branch, and others to 
improve and measure overall leadership effectiveness.
    While the DHS Best Places score for effective senior leadership 
went up 1.2 points in 2019 (to 41.1), the Department still ranks below 
13 other large agencies in that category. With a score of 49.3, the 
Department ranks last among its large-agency peers in overall effective 
leadership (an umbrella category that includes questions on senior 
leaders, supervisors, fairness, and empowerment).
    One factor that may exacerbate the leadership challenges at DHS is 
the high degree of turnover in Senate-confirmed roles and the fact that 
many are, and have been, vacant altogether. Currently, DHS has more 
vacancies in Senate-confirmed positions than any other department, with 
only 41 percent of those positions filled by a Senate-confirmed 
appointee. The Department has been without a Senate-confirmed secretary 
for 266 days, without a Senate-confirmed deputy secretary for 640 days, 
and without a Senate-confirmed under secretary for management for 280 
days, and there are no nominees for these positions. Other key 
positions that are vacant with no nominee are the general counsel, the 
under secretary for science and technology, and the director of U.S. 
Citizenship and Immigration Services. Nominations for several other 
positions are languishing in the Senate: The chief financial officer 
(pending since March 2019), the director of Immigration and Customs 
Enforcement (pending since May 2019), and the administrator of the 
Federal Emergency Management Agency (pending since October 2019).\10\
---------------------------------------------------------------------------
    \10\ The Senate is scheduled to consider the nomination for 
administrator of FEMA this week so it is possible that this position 
will be filled before this hearing.
---------------------------------------------------------------------------
    While concurrent long-standing vacancies in the Department's 
leadership have created a unique situation for the Department, unfilled 
positions are not new. For example, at the time of Jeh Johnson's 
nomination hearing for DHS Secretary in November 2013, there were 9 
vacancies in PAS positions at DHS, including the positions of secretary 
and deputy secretary.\11\ Then-nominee Johnson stated that if 
confirmed, his immediate priority starting on the day he took the oath 
would be to work with the White House and Senate to fill the vacancies 
in senior leadership across the Department.\12\
---------------------------------------------------------------------------
    \11\ ``Statement of Senator Thomas R. Carper,'' Nomination of Hon. 
Jeh C. Johnson to be Secretary of the Department of Homeland Security, 
Senate Committee on Homeland Security and Governmental Affairs, 
November 13, 2013. Retrieved from https://www.hsgac.senate.gov/imo/
media/doc/Opening%20Statement-Carper-2013-11-131.pdf.
    \12\ ``Statement of Jeh Johnson, on his nomination to serve as 
Secretary, Department of Homeland Security.'' Senate Committee on 
Homeland Security and Governmental Affairs, November 13, 2013. 
Retrieved from https://www.hsgac.senate.gov/imo/media/doc/
Prepared%20State- ment-Johnson-2013-11-13.pdf.
---------------------------------------------------------------------------
    The reality is that acting officials--even if they are seasoned and 
highly regarded individuals--often lack the full perceived authority 
that flows from Senate confirmation. Many acting officials do not feel 
like it is their place to make long-term policy, operational, or 
management decisions that will bind their successors.
    I often make an analogy to substitute teachers here--they may be 
skilled professionals who have much to offer the students but they are 
not perceived by those around them as having the full authority of the 
teacher, and they do not view themselves as having the right to make 
decisions with long-term impact. Thad Allen, the former commandant of 
the Coast Guard, has said that when there is a vacancy, ``people who 
are in an acting capacity feel they do not have the power to make long-
term changes and do what they need to do.''\13\ Senior-level vacancies 
stymie decision making, divert attention from management issues, slow 
hiring decisions for other key positions, make employees feel uncertain 
about the future or importance of their organization, and detract from 
the mission as acting officials turn their focus to finding temporary 
replacements to act in their own positions.
---------------------------------------------------------------------------
    \13\ Partnership for Public Service, ``Government Disservice: 
Overcoming Washington Dysfunction to Improve Congressional Stewardship 
of the Executive Branch,'' September 2015. Retrieved from https://
ourpublicservice.org/wp-content/uploads/2019/02/Government-
Disservice.pdf.
---------------------------------------------------------------------------
    The Partnership for Public Service launched the Political 
Appointments Tracker with the Washington Post in 2017 to track roughly 
700 key Executive branch nominations through the confirmation process. 
These positions include secretaries, deputy and assistant secretaries, 
C-suite positions, general counsels, and other positions that require 
Senate confirmation. A look at DHS reveals a history of turnover in key 
positions, and a grab-bag of nominations submitted and withdrawn, 
announced but not formally submitted or waiting months for Senate 
action.
    While there are many reasons that positions subject to Senate 
confirmation may be vacant, it is clear that the process for filling 
these critical roles has become cumbersome, complex, and politicized to 
the point that many jobs remain empty and talented people are reluctant 
to serve. Congress, in particular the Senate given its advice and 
consent role, has an opportunity to improve this process before the 
next election and we would be pleased to share ideas with the 
subcommittee if that would be of interest.
    Vacancies are not the only leadership challenge in Government. Over 
the years and across the Government, political leaders often have kept 
their focus on policy and not the management of the agencies they lead, 
which means employee morale is not a top priority. Political leaders 
typically have shorter tenures in office which do not align to the 
long-term efforts needed to improve employee engagement or address 
management challenges.
    At the same time, many senior career leaders who are tasked with 
management and employee engagement are technical experts in their field 
who lack strong management skills. Government-wide, only 41.8 percent 
(and only 33.8 percent at DHS) believe that leaders in their 
organization generate high levels of motivation and commitment in the 
workforce. This underscores the importance of choosing only people who 
have the desire and aptitude to manage people for Executive-level 
management roles and equipping Federal leaders with the tools and 
training necessary to lead people effectively.
                            recommendations
    Both the Department and Congress have a role to play in efforts to 
improve employee satisfaction.
    For its part, Congress should:
  <bullet> Continue oversight.--The subcommittee today is helping to 
        identify long-standing problems with DHS morale and find 
        solutions. We encourage you to make this hearing an annual 
        occurrence. The subcommittee could follow up by holding a 
        hearing on DHS subcomponents that are doing well with employee 
        engagement, to help celebrate success and encourage 
        replication. Members of Congress should also visit the 
        Department's offices, both in the National Capital Region and 
        in the field, to get insight from managers and employees on the 
        front lines.
  <bullet> Hold leaders accountable.--In addition to holding leaders 
        accountable through oversight, this committee may want to 
        consider the approach taken by the VA Choice and Quality 
        Employment Act of 2017, which requires performance plans for VA 
        political employees.\14\ Performance plans for political 
        appointees should include managing their organizations and not 
        just implementing policy, and supporting efforts to recruit and 
        retain highly qualified talent, develop future leaders, engage 
        employees, and hold subordinate managers accountable for 
        addressing performance.
---------------------------------------------------------------------------
    \14\ Pub. L. 115-46, VA Choice and Quality Improvement Act (Aug. 
12, 2017), Section 203.
---------------------------------------------------------------------------
  <bullet> Provide continuity in management positions.--To help provide 
        continuity of operations and a long-term vision for the 
        Department, this committee should consider converting political 
        positions responsible for overall management and operations--
        for example, some of the C-suite positions--to career executive 
        positions to be filled by individuals who are experts in their 
        field, with fixed terms and performance contracts. Another 
        approach would be to change the expectation that certain 
        politically-appointed positions turn over with a change in 
        administration; inspectors general are appointed without regard 
        to political affiliation and in general they are not asked to 
        resign at the end of a President's term. The IGs provide a 
        useful model for other roles where the duties are management 
        and operations versus policy, and where sustained leadership 
        and institutional knowledge would improve the Department's 
        ability to implement changes over time. The position of under 
        secretary for management is one position that might benefit 
        from a new model. In the span of the last 5 years, the position 
        has changed hands 5 times, as leadership has bounced from 
        confirmed to acting leaders. A long-term position, whether by 
        statute or expectation, to span administrations could set the 
        expectation that the office holder is driving long-term 
        management initiatives and should be insulated to some extent 
        from political whirlwinds. The position of comptroller general 
        at the Government Accountability Office is one such model.
  <bullet> Provide budget stability.--Bipartisan legislation \15\ 
        introduced by Senators James Lankford and Maggie Hassan would 
        provide for an automatic continuing resolution at prior year 
        spending levels when Congress and the President fail to agree 
        on spending levels before expiration of existing 
        appropriations. The bill would also prohibit official travel 
        and require Congress to prioritize consideration of 
        appropriations until new spending bills are enacted. This bill 
        is an effective mix of carrots and sticks to avoid shutdowns. 
        Congress should also consider other budget process reforms, 
        such as adoption of a biennial budget resolution and multi-year 
        appropriations, to provide more budget stability.
---------------------------------------------------------------------------
    \15\ S. 3009, the Prevent Government Shutdowns Act of 2019.
---------------------------------------------------------------------------
  <bullet> Consolidate Congressional jurisdiction over DHS.--The 
        leaders of the House and Senate should streamline committee 
        jurisdiction over the Department or, at a minimum, initiate a 
        review. A bipartisan review commission was proposed in the last 
        Congress as part of the Department of Homeland Security 
        Authorization Act, which did not see final passage.\16\
---------------------------------------------------------------------------
    \16\ The Department of Homeland Security Reauthorization Act, H.R. 
2825, Title VII, 116th Congress, as reported by the Senate Committee on 
Homeland Security and Governmental Affairs. Retrieved from https://
www.Congress.gov/115/crpt/srpt351/CRPT-115srpt351.pdf.
---------------------------------------------------------------------------
  <bullet> Modernize the Federal Employee Viewpoint Survey.--The 
        statute requiring annual employee satisfaction surveys dates to 
        2003.\17\ Congress should modernize the law to ensure that the 
        FEVS continues, that all agencies participate in the survey and 
        that the data is comparable across agencies and agency 
        components. The survey itself should be easy for Federal 
        employees to take, including employees in the field like border 
        patrol agents and TSA screeners, and agencies should receive 
        their data in a timely way that allows them to act on the 
        results before the next survey is in the field.
---------------------------------------------------------------------------
    \17\ Pub. L. 108-136, National Defense Authorization Act for Fiscal 
Year 2004 (Nov. 24, 2003), Section 1128.
---------------------------------------------------------------------------
    DHS should:
  <bullet> Continue to improve data and metrics.--In its last High-Risk 
        update, GAO found that DHS has made progress establishing 
        metrics of success within components' action plans for 
        addressing employee satisfaction problems. This is never a one-
        and-done exercise.\18\ The Department will need to continue to 
        use the data to probe frustrations with workforce processes, 
        technology or norms, including by soliciting feedback from 
        employees and employee organizations. Pulse surveys and exit 
        surveys are also useful tools to supplement the FEVS. Leaders 
        then need to work with managers and employees to translate the 
        vision into action, with a clear and effective communications 
        strategy. Finally, leaders must hold themselves accountable 
        through their performance plans, and celebrate success.
---------------------------------------------------------------------------
    \18\ Government Accountability Office, High-Risk Series: 
Substantial Efforts Needed to Achieve Greater Progress on High-Risk 
Series (March 2019), p. 188. Retrieved from https://www.gao.gov/assets/
700/697245.pdf
---------------------------------------------------------------------------
  <bullet> Ensure that political leaders are focused on engagement and 
        management.--The Department's senior political leaders should 
        be individuals who have experience managing large organizations 
        and accept responsibility for the performance and operations of 
        the Department. They should be held accountable for management, 
        including employee engagement, in their performance plans. The 
        Department should also maintain a robust orientation program 
        for new political appointees--some of whom may be new to the 
        Federal Government. This would improve political appointees' 
        ability to increase employee engagement, improve retention, 
        enhance performance, and work within and across agencies to 
        achieve results.
  <bullet> Enhance career leadership development.--DHS should be 
        commended for its commitment to leadership development efforts 
        such as the DHS Executive Capstone program, training for DHS 
        executives that focuses on the development of key leadership 
        qualities but also looks to broaden the executives' awareness 
        of leadership decision making and their role across Government. 
        The Partnership is proud to work with DHS in delivering the 
        curriculum for this program. The Department should continue to 
        strengthen and invest in leadership training at all levels to 
        improve the skills of existing leaders and develop the next 
        generation of leaders. These efforts should include manager and 
        supervisor training, rotation requirements for aspiring leaders 
        (so that they understand the Department as a whole), and other 
        mobility opportunities that give leaders a greater depth of 
        experience.
  <bullet> Create a culture of continual learning, reskilling, and 
        upskilling.--The Department's scores on training and 
        development have been trending up since 2015, but once again 
        this is a category where DHS ranks last among large agencies. 
        Only 33.4 percent of DHS employees are satisfied with their 
        opportunity to get a better job within their organization. Our 
        recent look at reskilling and upskilling in both Government and 
        the private sector reaffirms these efforts in the President's 
        Management Agenda.\19\ Opportunities for rotations, public-
        private talent exchanges, and other professional development 
        opportunities not only speak to a workforce that increasingly 
        expects mobility in careers, but also helps break down 
        stovepipes.
---------------------------------------------------------------------------
    \19\ Partnership for Public Service and General Assembly, ``Looking 
Inward for Talent: Retraining Employees for Tomorrow's Jobs,'' 
September 2019. Retrieved from https://ourpublicservice.org/wp-content/
uploads/2019/09/Looking-Inward-for-Talent.pdf.
---------------------------------------------------------------------------
    Both Executive and Legislative branches should:
  <bullet> Work to fill vacancies.--While the President has the 
        responsibility for making nominations, Congress should, where 
        appropriate, convert Senate-confirmed positions to Presidential 
        appointments not requiring confirmation, and should work to 
        reduce the overall number of appointments. This would allow the 
        White House to focus on the most important appointees. The 
        Partnership has also recommended that the Senate revisit its 
        ``privileged nomination'' process to make it the streamlined 
        process it was intended to be for nominations that are not 
        controversial, and to work with the Executive branch to 
        streamline the paperwork required of nominees. Congress should 
        also reexamine the Federal Vacancies Reform Act to ensure 
        clarity in the law, including surrounding the interplay of the 
        FVRA and agency-specific succession acts.
                               conclusion
    As recently as 2017, the Partnership recognized DHS as the most 
improved large agency in our rankings. With attention to the 
recommendations discussed today--and with the help and support of 
Congress--the Department could reclaim that mantle and make even 
further progress. Again, thank you for the opportunity to appear before 
the subcommittee today. I look forward to continuing to work with both 
the subcommittee and the Department in support of strengthening DHS 
employment engagement.

    Ms. Torres Small. Wow, impeccably timed, Mr. Stier. That 
was well-done.
    I thank all of the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    According to the ``Best Places to Work'' rankings produced 
by the Partnership for Public Service since 2012, the 
Department of Homeland Security has ranked last among all large 
Federal agencies. It also ranks, as I mentioned before, last 
among agencies involved in the National security space.
    I want to start with Mr. Currie, and then I will go to Ms. 
Bailey.
    What are your reactions to these rankings?
    Actually, I will start with you, Ms. Bailey. What are your 
reactions to these rankings? Do you believe the Department 
suffers from low morale?
    Ms. Bailey. I appreciate the question, Chairwoman.
    With regard to the rankings, it is something that 
absolutely that we pay attention to, as well as we pay 
attention to the FEVS scores in total. One of the things that 
we try to do is pivot off of that and look down into the root 
causes, get out into the field and actually talk not only to 
the leadership, but talk to the employees themselves.
    I have gone down to the border several times. I have gone 
out to the FEMA installations, to TSA, to a variety of places, 
and sat down with the employees and really talked through with 
them, not so much about our--I am sorry.
    Ms. Torres Small. Just to make sure, do you believe that 
DHS does suffer from low morale?
    Ms. Bailey. I believe that we certainly have room for 
improvement, but as far as from a morale standpoint, I think 
one of the other things that we also look at is the fact that--
and I believe it was mentioned earlier--that 86 percent of our 
employees will put in the extra effort to get the job done, 
that they believe in the mission that they are doing.
    So even despite everything that they are doing, the austere 
conditions, the difficult work, and sometimes thankless job 
that they have, they still every day come to work and try to do 
the very best that they possibly can.
    Ms. Torres Small. It is clear you have some exceptional 
employees, and we need to recognize that as we work to improve 
morale so that folks feel supported in their jobs.
    Mr. Currie, Ms. Bailey mentioned a few of the reasons, the 
austere conditions, the difficult job. Do you feel like that is 
a full and complete explanation for the low morale challenges?
    Mr. Currie. Oh, no way. I mean, I think there are a lot of 
agencies across Government that have extremely difficult 
missions and that are under intense public and Congressional 
scrutiny, too. So it is not enough just to chalk the reasons up 
to those reasons.
    What we see in the root cause analysis and in the responses 
to the survey is there are a lot of just core management issues 
that come into play here, things that all of us want in a 
workplace that we come to every day. Do I trust my supervisor? 
Does management communicate with me? Is there transparency? Do 
I understand how I am rated? Are other employees held 
accountable for their performance?
    I mean, these are core management issues that all agencies, 
private and public, face. I think DHS has made a lot of 
progress over the years maturing as a Department, but I think 
where they are with the scores now shows that they still have a 
long way to go.
    Ms. Torres Small. Mr. Stier, do you have anything to add?
    Mr. Stier. I think that the real issue again is leadership. 
We see in our research that about two-thirds of the employee 
engagement scores are driven by perceptions of leadership. I 
think that is where the biggest gain can be made here.
    So, again, really important to give kudos to the good 
things that they have done already and to understand that we 
are talking about an average when we talk about DHS, that you 
have got components that are exceptional and then you have ones 
that are struggling more. So pulling that apart is very 
valuable.
    The other piece I would suggest is, even within those 
components, when you pull them apart you can actually see huge 
variation, and that tells you a lot about what actually is 
possible.
    So just a mind exercise. If you took every component in DHS 
at their highest score over the course of the rankings we have 
done, they would be actually at 15 percent points higher, they 
would be a number at 60. So we know there is a higher ceiling 
there. Given other externalities, there still is a higher 
ceiling.
    Ms. Torres Small. Great. So we are talking about the higher 
ceiling there.
    Mr. Currie, in terms of the current situation about where 
we are, what are the risks associated with not going back to 
that high ceiling or finding those moments for increased 
morale?
    Mr. Currie. Well, I think that this is one of the things I 
wanted to mention today, is that I think sometimes there tends 
to be a tendency to look at human capital matters and morale 
separately from the mission, and they are not separate. It has 
been proven that places that have much higher morale and 
employee engagements do better work, they are more productive, 
and they have less turnover, which is a huge problem, for 
example, in Customs and Border Protection with agent turnover. 
So morale has a huge impact on the mission.
    Ms. Torres Small. Thank you.
    I will yield my time for now since I don't have time for 
another question. The Chair recognizes the Ranking Member, the 
gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Chairwoman.
    Again, thank you all for being here.
    I want to start with flexibility in hiring and firing. It 
is one of the major issues that CBP, FPS, and other components 
face, is their authorized strength and meeting the billets that 
they have. That is one reason I proposed H.R. 1609, the Anti-
Border Corruption Improvement Act, which would streamline 
hiring in CBP by giving waivers to law enforcement and military 
as far as the polygraph requirement goes.
    There is, of course, an issue with underperformers and how 
you deal with that, and how underperformers can sap the morale 
and energy of an organization.
    So, beginning with Ms. Bailey, maybe you could address that 
and how that does affect morale. I will leave it to the rest of 
the panel as well.
    Ms. Bailey. There is no doubt that underperformers affect 
the morale of a work force. It is not just really a supervisor 
issue. It is a colleague issue as well. So it is something that 
we do focus our attention on.
    In fact, one of the things that we just established is a 
disciplinary process management oversight council that I am co-
chair actually with Chief Huffman out of CBP.
    Every single component participates on that. We brought in 
our offices of professional responsibility as well as our 
security offices to really look at all of the allegations, look 
at how we are handling those disciplinary actions, performance-
based actions, and making sure that it is not just that we are 
consistent, but that we are actually handling those things in a 
timely fashion so that they are not just hanging out there.
    Because nothing is worse than us not just taking the 
action, but then not doing it in a timely fashion. So it is 
something that we are pretty dogged about in making sure that 
we address.
    Mr. Crenshaw. If there is an action that would warrant 
removal of that employee, how long does it generally take to 
actually fire that employee?
    Ms. Bailey. We actually looked into that. It can take 
anywhere from 120 to 240 days to actually remove an employee.
    Mr. Crenshaw. What about hiring? Flexibility in hiring, how 
would that improve DHS morale?
    Ms. Bailey. Well, one of the things that we have actually 
introduced is the DHS Enhanced Hiring Act, and it has a two-
prong approach to it that I think would actually help us to 
enhance our flexibility with hiring.
    One is that right now there are multiple ways for veterans 
to be able to be hired, all kinds of different hiring 
authorities. What we would love to do is consolidate that down 
to 1 so that we could hire any veteran, whether we are at a 
military transition center, a university, a black hat event, 
wherever we are at, our ability to hire a veteran.
    We have talked to our own Veteran Service Organizations, 
and we have talked to the National Veterans Organizations as 
well with regard to this, because we really think it is 
important that we have the ability to hire veterans as 
efficiently as possible.
    The second prong of this is that once we maintain 20 
percent or more of our veterans on board, which DHS is at 
almost 30 percent, that we have the ability then, through any 
source, to be able to hire the rest of our employees.
    Mr. Crenshaw. That is excellent.
    We are going to come back to black-hat hiring, but before 
we do, Mr. Currie and Mr. Stier, do you have anything to add to 
the hiring and firing flexibility?
    Mr. Currie. Well, I think your bill, I think one of the 
things it does is to allow people that we know are already 
vetted to not have to undergo all the vetting again. I think 
there is no way to argue that doesn't make sense.
    The other thing I would say is hiring and firing, those are 
very concrete things, but I think organizations that have a 
strong performance culture where even if you can't fire people 
or it takes a year to fire someone, if they know their leaders 
are giving real feedback to people and they are being held 
accountable even within the agency, that makes a huge 
difference for people's morale, too.
    Mr. Stier. I think that this is deeply entwined with the 
morale of the organization, because they are mission-based 
organizations, and having the right people doing the work well 
is fundamental to your connection to the ability to get stuff 
done.
    So I do think these are issues that ought to be focused on. 
I think Ms. Bailey, the legislation she talked about is an 
important step in the right direction. On the hiring side, it 
is way, way too challenging.
    On the firing side, one thing I would advocate for is--and 
actually in both instances--that this is, in my view, the core 
part of this is actually a management problem as opposed to a 
rule problem, that managers aren't actually either selected for 
their capabilities around hiring and firing people, giving good 
performance feedback, and they are not held accountable for it.
    There are also some ways that you might do things that are 
easier to change the overall system. So one proposal we have 
had is you have a year typical probation period. After that 
year, you become nonprobationary. Our perspective is, why? 
Shouldn't there have to be an affirmative choice by a manager 
that you meet the qualifications necessary to stay rather than 
having that done by default, so managers are actually doing 
their job. Did they, in fact, bring the right talent on board? 
If you do that, you are going to have many fewer people that 
you are going to have to fire.
    So I think there are solutions to this that are more than 
just, hey, let's just make this simpler to fire people faster, 
that get at those management issues.
    Mr. Crenshaw. Thank you. I yield back.
    Ms. Torres Small. Thank you.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who are present at 
the start of the hearing, based on seniority on the 
subcommittee, alternating between Majority and Minority. Those 
Members coming in later will be recognized in order of their 
arrival.
    The Chair now recognizes the gentlewoman from California, 
Congresswoman Barragan.
    Ms. Barragan. Thank you, Madam Chair.
    Ms. Bailey, did you take the survey?
    Ms. Bailey. Yes.
    Ms. Barragan. So the first question on the survey says: 
Would you recommend your organization as a good place to work?
    Ms. Bailey. Absolutely.
    Ms. Barragan. The second question is: Considering 
everything, how satisfied are you with your job, very 
satisfied, satisfied, neither satisfied, dissatisfied, or very 
dissatisfied?
    Ms. Bailey. Very satisfied.
    Ms. Barragan. Considering everything, how satisfied are you 
with your organization?
    Ms. Bailey. Very satisfied.
    Ms. Barragan. Why do you think your responses are so very 
different than those of your colleagues in your Department 
where you work, in your part of the organization, given that it 
ranked so low? Any idea?
    Ms. Bailey. Well, one part of this is that I think my 
scores are reflective of many employees within DHS. As we have 
said before, you have USCIS, Coast Guard, who have some of the 
highest-ranking component scores. We have Secret Service that 
has gone up by 15 points.
    Ms. Barragan. Ms. Bailey, I am asking specifically about 
DHS's Management Directorate itself, which houses the Office of 
Chief Human Capital Officer. Is that where you work?
    Ms. Bailey. Yes.
    Ms. Barragan. It is ranked in the bottom 25 percent of 
Federal offices and has seen employee morale decrease over the 
last 2 years. So I am asking, why do you think your responses 
are so very different than your colleagues? Do you have any 
idea why that might be the case?
    Ms. Bailey. One of the things that we really need to do is 
dig in a little bit deeper from the management level. I will 
tell you that we spend a tremendous amount of our time looking 
at the components and seeing where they are going, addressing 
their root causes.
    So I would say that one of the areas that I would like to 
focus my attention on is digging in deeper into that issue.
    Why are my scores this way? Because I absolutely have 
fantastic leadership that supports me every step of the way, 
get the money that I need with regard to our Employee and 
Family Readiness programs. I have top-level support for what we 
are trying to do for the employees throughout the Department. 
That is the viewpoint I see.
    Ms. Barragan. Are those efforts that are being made now the 
ones you are mentioning that you want to see? Do you know if 
there is something being done on that to dig deeper?
    Ms. Bailey. Absolutely, I know that those programs are 
being deployed. They are being deployed as we speak across the 
Department.
    Ms. Barragan. OK. So you testified in your opening 
statement that workers are simply doing their job. Do you 
remember saying that?
    Ms. Bailey. Yes.
    Ms. Barragan. Well, employees in the Department have been 
asked to carry out policies, some of which they don't agree 
with. What do you think that does to employee morale?
    Ms. Bailey. As employees of the Department of Homeland 
Security it is really--and as civil servants--it is our 
responsibility to carry out the policies of the administration.
    Ms. Barragan. But do you think that carrying out a policy 
you don't agree with decreases employee morale?
    Ms. Bailey. I believe that there are areas in which we can 
work with our employees to help them better understand our 
policies, to ensure that they are able to carry those out to 
the best of their ability.
    Ms. Barragan. Well, then let's talk about the separation of 
women and children. How has the policy of separating women and 
children from their parents affected DHS employee morale? You 
just said, let's help them understand why they should do that. 
There is a good example of policy where we heard people did not 
agree with. They had to carry it out. How do you explain to 
that employee and say, this is why you should be doing this and 
this is why it is good policy?
    Ms. Bailey. One of the things that we do is--and we really 
do sit down with the employees and just have a conversation 
with regard to the policies, make sure that they are able to 
carry out these policies.
    Ms. Barragan. I am asking a very specific question, Ms. 
Bailey. It is a very specific question. Do you think that 
employees who have to carry out this inhumane policy to 
separate children from their parents, do you think that helped 
employee morale? It is a yes or no.
    Ms. Bailey. You know, without the data to actually look at 
that----
    Ms. Barragan. You don't know the data about the impact that 
it had on children and parents and what that has done to 
employees?
    You, yourself, mentioned, Ms. Bailey, that these employees 
are mothers and fathers. You don't think there was an impact, 
that there was an employee who has children, to see these 
children ripped away from their parents, as parents themselves? 
You don't--you want to see data on that? Really?
    That is kind-of sad, because you have just got to look at 
parents and ask them, and your coworkers. There is not data to 
look at here, although there is plenty of data about the mental 
health impacts this has had on children and parents. So if you 
don't start by identifying that, then I think that is a 
concern.
    With that, I yield back.
    Ms. Torres Small. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Madam, gentlemen, thank you for appearing today. I have a 
couple of phases to my questions, so we are going to move 
rather quickly.
    One is referencing the responsibility of inflammatory or 
vitriolic rhetoric coming out of this body directed at DHS and 
how that might affect morale.
    Before I go there, let me ask, just yes or no across the 
board, have any of you ever been a member of the military or a 
member of, say, a paramilitary organization like a police 
force?
    Madam.
    Ms. Bailey. No, but I was married to an Army veteran.
    Mr. Higgins. OK. Let me clarify. Outside of administration, 
have you worked the street or been in the field? It is not a 
derogatory question. We just need to clarify.
    Sir.
    Mr. Currie. No, sir.
    Mr. Higgins. Sir.
    Mr. Stier. No.
    Mr. Higgins. OK. Well, let me share with you that my 
experience, and I believe certainly my veteran colleagues on 
this committee would likely agree, morale has a tendency to be 
unit-specific or company-specific when measured generally. 
Platoon-specific, even individual-specific. That there is 
always that guy that is the light of the group and lends 
increased morale to his colleagues, his brothers and sisters 
that he serves with. So the vastness of the DHS and how it is 
structured or not structured I am going to get to.
    Before I get there, let's talk about inflammatory and 
vitriolic statements. Members of this Congress, for example, 
have made accusations that DHS was intentionally killing young 
immigrant children, made comments that DHS exists within a 
culture of violence and racism, made comments that DHS is a 
rogue agency operating beyond the bounds of the law, made 
comments that DHS is running concentration camps along the 
Southern U.S. Border.
    On top of that, months of denial that a crisis at our 
Southern Border even existed, followed by months of delay to 
issue supplemental funding to address it.
    So I ask the panel, yes or no, do you acknowledge that 
vitriol from elected officials has no doubt contributed to the 
very morale that we are discussing? Do you think demonizing 
rhetoric coming from Members of Congress and shared heavily by 
the media can have damaging effects on morale at DHS?
    Ms. Bailey.
    Ms. Bailey. Yes, and I have seen the personal effects of 
it.
    Mr. Higgins. Mr. Currie.
    Mr. Currie. Well, I don't have any way of measuring it, but 
I don't see how it could help.
    Mr. Higgins. Good answer.
    Mr. Stier.
    Mr. Stier. Certainly public figures who denigrate civil 
servants, that will cause a reduction in morale.
    Mr. Higgins. OK. Thank you, madam and gentlemen.
    Moving quickly to my next phase. Of the 17 agencies, Mr. 
Stier, that you state that DHS ranked 17 of 17, quote/unquote, 
large agencies in the matrix that you measure, does DHS have 
the dubious distinction of being the only large agency that has 
never been fully authorized by this Congress?
    Mr. Stier. I believe that is correct.
    Mr. Higgins. I believe you are correct in your answer, sir.
    Mr. Stier. Thank you.
    Mr. Higgins. In the 115th Congress, under Chairman McCaul, 
we passed a bill through this House granting full authorization 
for DHS which didn't go anywhere. Many Members of this 
Congress, my colleagues across the aisle, voted against that 
full authorization, and it could not get past cloture in the 
Senate to get to the floor vote.
    So DHS in your opening statement you said operates under an 
overabundance of committees with jurisdiction over DHS. This is 
precisely what full authorization of DHS would fix, because it 
currently exists as a fractured agency reflective of the many 
agencies that existed prior to the manifestation of DHS. You 
have jurisdiction across 8 or 9 committees rather than focused 
on one central control and command and one committee, which 
should be this committee, Madam Chair, this committee as a 
whole, with oversight responsibilities for DHS.
    So I would suggest to my colleagues on both sides of the 
aisle that we focus on fixing the problems that we know to 
exist, that we should function as a Congress and bring full 
authorization to DHS, and address the words that we use out of 
this body to discuss these men and women.
    Madam Chair, I yield.
    Ms. Torres Small. Thank you very much.
    We are going to do a second round of questions if folks 
want to stick around. I appreciate the comment, in terms of 
focusing on the things we can change.
    With that, Mr. Stier, you mentioned in your opening 
comments some of the improvements that have been made through 
components like the Coast Guard, Cyber--CISA, as well as the 
Secret Service. Can you provide some highlights and some top 
lines for lessons learned there that might be applied more 
Department-wide?
    Mr. Stier. Certainly. I think it again comes down to 
leaders who are doing great jobs. I would point to Tex Alles 
again, who was the--he may have been the first non-Secret 
Service agent to become the head of that component. I think he 
turned it around and did a fabulous job. He is now the acting 
under secretary.
    It underscores another one of the recommendations, which 
would be if you had someone like that who was there for 5, 6, 
7, 8 years in the under secretary for management position, I 
think you would see all kinds of great things that could 
happen.
    It begins with the point that Chris made, which is a 
recognition that, fundamentally, mission is about people, that 
mission is about having people who are the right folks in the 
job, who are supported in doing what they care about.
    One other I think stat that we have not yet cited which I 
think is so phenomenally powerful, and it is true at DHS and it 
is true across the entire Government, and that is that the 
people are there for the mission. So it is close to 94 percent 
of the DHS work force would go the extra mile in order to get 
the job done.
    What is interesting is NASA is the No. 1 agency in our 
rankings. Those numbers are not really any fundamentally 
different. The mission commitment numbers are the same. It is 
really the leadership numbers that change.
    So you asked for specific examples, and I think it begins 
at the top. It begins with leaders who see this as a primary 
part of their function, and it is about creating that 
relationship of trust with their work force, so that they are 
able to believe that their voice is being heard and being 
responded to in a fundamental way.
    Ms. Torres Small. Thank you.
    Mr. Stier. So a lot of this stuff seems very 
straightforward and basic, but, in truth, it is and it is also 
not done all that often.
    Ms. Torres Small. Thank you, Mr. Stier.
    Mr. Currie, do you have anything to add?
    Mr. Currie. I would like to piggyback off that issue of 
trust. I think one of the things we have noticed in components 
that have increased their scores is that there has been a 
concerted effort by the leadership to listen to the employees, 
and not just listen to the employees, but actually show them 
how they are implementing their suggestions and implementing 
their feedback, because that builds trust. There are a lot of 
very specific things you can do to address that.
    Ms. Torres Small. Thank you, Mr. Currie.
    Ms. Bailey, can you explain any efforts that you have on-
going to listen to the employees and then show that you are 
responding to their feedback?
    Ms. Bailey. Yes, absolutely. I think one of them is our 
Employee and Family Readiness initiative actually is something 
I would really like to talk about, because the FEVS scores 
really only tell you a bit of the picture. Going down and 
actually sitting down with the employees and talking to them 
and trying to understand what it is that really could help them 
not just on the job but also help them as a whole person.
    So some of the things that we have really looked at is the 
general stress. When you are out on the border--and I have 
witnessed agents whose hands are shaking as they are trying to 
in-process a 6-year-old that they found abandoned in the 
desert. I have witnessed when they--I have not witnessed, but I 
get the suicides that come across my desk. Just today, right 
before I came in here, another Border Patrol agent died.
    So, seeing all of these kinds of things, we know that we 
have to treat this issue as the whole person. So it is not just 
about the employee----
    Ms. Torres Small. I am sorry, I just want to make sure I 
can get specifically how you have shown that you are responding 
to employee feedback.
    Ms. Bailey. So in meeting with them, we know that general 
stress, dealing with their personal relationship issues. We 
have delivered training for them, mindfulness training, to help 
them with their general stress. We have delivered stronger 
bonds training to help them with their personal relationships.
    We have delivered financial literacy for them to help them 
with their financial concerns. We have also created a mental 
health website to help them with their mental health as well 
and introduce them to employee assistance programs and 
dependent care as well.
    So those are examples of how we have listened to them and 
we have deployed what they have asked for.
    Ms. Torres Small. Thank you, Ms. Bailey.
    Just quickly, one of the main concerns that was highlighted 
was the failure in leadership opportunity and creating training 
within leadership. So can you explain any plans you have for 
new programs within that space?
    Ms. Bailey. Yes, absolutely.
    So with regard to leadership development, it is not just 
about our SES. We have fantastic programs for our SES, in fact, 
some of the best I have seen in my 38 years.
    But one of the other things that we are doing is trying to 
go down much deeper into the organization and provide 
leadership development training for all of our employees. So we 
have things called joint fellows programs, joint duty programs, 
bridges programs that help at the 7/9/11 level.
    So the point is is that what we are really trying to do is 
create a leadership cadre with every employee, not just our 
leadership.
    Ms. Torres Small. Thank you very much.
    My time has expired. I now recognize my colleague, the 
gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you.
    Regarding the question, assuming it was asked in good 
faith, about the decrease in morale because of policies needed 
to be implemented by the administration, it is worth pointing 
out the child separation policy was ended in June 2018, and yet 
2019 we had a decrease in ICE and CBP morale.
    I don't yell at CBP agents; I talk to them. I talk to 
hundreds of them. It is pretty obvious to me what worries them. 
The fact that people are literally attacking ICE facilities and 
verbally attacking them from the highest places in Government, 
it is pretty obvious what keeps them awake at night.
    But back to what is working. I mentioned before I wanted to 
get to the black hat hiring. A lot of people don't realize what 
that is, but that involves cyber work force, which is extremely 
important considering what will inevitably be an increase in 
cyber attacks on the homeland as we engage with actors like 
Russia, China, Iran, and nonstate actors, and the need to 
protect our infrastructure and private industry.
    So tell me about black hat hiring and how that is 
increasing our hiring flexibility and helpful toward Homeland 
Security.
    Ms. Bailey. Yes, Congressman.
    Well, one of the things that we did--and thank you to 
Congress--actually is we received Title 6 authority, which gave 
us the authority to basically look at our cybersecurity work 
force and recreate everything about the way that we recruit, 
hire, retain, pay, compensate our cyber work force.
    We have taken absolute full advantage of that, giving us 
the opportunity now to be able to go into some of these 
different conferences, hold job hiring events at that point, 
and be able to hire these folks on the spot. We are able to do 
market-sensitive pay, so that we can pay them in accordance 
with what they should be paid and not be tied to the antiquated 
GS system.
    We will also eliminate the classification and the 
qualification. It is based on a 1929 system that doesn't work 
for anybody. So instead, what we are going to do, we have 
worked with our subject-matter experts to make sure that the 
capabilities that we are going to hire folks for actually match 
the mission in which we have a need for.
    So, with that--and I have full support of CISA as well as 
our CIO community, and we will implement that this year.
    Mr. Crenshaw. OK. How many more employees do you expect to 
hire under that new program?
    Ms. Bailey. I think roughly--I am not sure it is going to 
be more employees. More so it is going to be that we are going 
to start--well, let me put it this way. We will hire probably 
about 150 this year, add another 350 next year.
    Mr. Crenshaw. Mostly under CISA?
    Ms. Bailey. Yes, mostly CISA. Then also our CISO community, 
that is our chief information security officer community, 
throughout the Department.
    Mr. Crenshaw. One question that has come up to me before 
is, thinking outside the box here and the ability of Border 
Patrol and ICE, there to be more flexibility between switching 
between Border Patrol and ICE, namely because of the locational 
preference.
    Ms. Bailey. Right.
    Mr. Crenshaw. Sort-of like if you think of the military on 
shore duty versus sea duty.
    Has there been any discussion of that? Is that feasible at 
all and would that help morale?
    Ms. Bailey. Yes, actually, and we track all of that. So one 
of the things that we have done for CBP--because you are 
absolutely right. After serving so much time on the border, it 
is kind-of like a deployment, if you will. Then what we have is 
a rotation program in which they can then opt to go to a 
different location. Or we work with them. ICE has a lot of more 
urban locations. So that way their spouses and their families 
have opportunities that they might not have had on a border 
town. So we have a lot of these.
    We also have instituted retention incentives, as well as 
special pay, critical pay, everything that we can think of to 
ensure that they are given what they need to do the job.
    Mr. Crenshaw. Excellent.
    In my limited time left, recently there was I think a win 
for paid family leave in the Federal Government. How do you 
anticipate that playing out on both morale and also readiness?
    Ms. Bailey. Well, I think it goes into effect in October. 
So OPM will regulate it, and we will have to see with that.
    But with us, I think it is just like any other flexibility. 
I mean, today they can use Family Medical Leave Act, they can 
use sick leave, annual leave, a variety of leave.
    So I think we will manage it the same way we do every other 
flexibility. I don't anticipate that we are going to have a lot 
of difficulty, because we will at least be able to plan--
hopefully 9 months in advance, right?--that we can plan for the 
readiness that we will need to address.
    Mr. Crenshaw. Excellent. Thank you.
    I yield back.
    Ms. Torres Small. Thank you.
    I now recognize for 5 minutes the gentlewoman from 
California, Ms. Barragan.
    Ms. Barragan. Thank you.
    Mr. Stier and Mr. Currie, the U.S. Secret Service is one of 
the departments, one of the areas that had been experiencing 
some negative morale, bad morale, maybe the best way to say it 
is a decrease in morale. For the last several years there has 
been a turnaround there. The U.S. Secret Service Director, Mr. 
Randolph Alles, was part of the turnaround and was there when 
that was occurring.
    I want to talk a little bit about when you denigrate 
employees. The President of the United States was doing that 
with the director of the U.S. Secret Service while he was 
turning it around. He ridiculed him, calling him names before 
he fired him.
    What do you think that does to employee morale?
    Mr. Currie. Well, as I said when I answered Mr. Higgins, I 
don't think it can help. But I think employee morale, frankly, 
is a lot more complicated when you are looking at an agency 
across 15,000 to 20,000 people. There are just a number of 
factors that go into how people answer that survey.
    Ms. Barragan. I understand. I am trying to ask, you don't--
do you think there is a negative impact when the President of 
the United States is basically calling names of the director of 
the U.S. Secret Service who has been turning around the Secret 
Service to increase morale?
    Mr. Currie. Well, ma'am, I don't have any data showing what 
sort of impact that has on morale across such a large 
organization. It certainly doesn't help morale, but I think 
there are so many factors that go into an individual's morale 
as a component and a component morale that I think it is a 
difficult question to answer.
    Ms. Barragan. Mr. Stier, do you have an opinion?
    Mr. Stier. So, Congresswoman, I think there is no question 
that when senior leaders in any aspect of our society, but 
certainly ones that are actually running the Government, have 
negative things to say about their employees or the civil 
servants that are there as career merit-based employees, it is 
a bad thing.
    Ms. Barragan. Thank you. Thank you for saying that.
    Mr. Stier. We ought to have political leaders across the 
board and just understand that this is a problem that we have 
seen not just now, but it is one that we have seen for decades. 
I think it is a mistake, because fundamentally these are folks 
that are working for the American people. They are working not 
for any particular policy that the political leadership 
decides. They are working on the basis of supporting the 
Constitution of the United States.
    So fundamentally one of the things that we do as an 
organization is the Service to America medals, where we try to 
highlight great stories of Federal employees. We would 
welcome--we are actually getting nominations right now--we 
would welcome nominations from any of you on the panel.
    We need to create a culture of recognition. In my view, 
again, focus on the good, you are going to create more uplift 
than anything else that is possible to get done.
    Ms. Barragan. Great.
    Mr. Stier, there are currently 13 senior positions vacant 
throughout the Department from the Secretary and deputy 
secretary to the heads of CBP and ICE. Most of these role are 
filled by acting officials.
    Mr. Stier. Yes.
    Ms. Barragan. What effect does a lack of permanent 
leadership have in an organization's ability to promote that 
positive change you are talking about?
    Mr. Stier. The metaphor for me, it is like the substitute 
teacher we have all experienced before. You can be an amazing 
educator, but if you are the substitute teacher you don't, 
yourself, perceive your job as the long-term difficult 
problems, and those on the outside, the class, the children, 
other teachers, don't see you as that long-term partner either. 
So it diminishes the ability of leadership to do their job 
well, and it is a mistake.
    So I would say that part of the problem here is a systemic 
one. We have 1,200 Senate-confirmed positions. That is too many 
to actually get through the Senate. So one of the things we 
would advocate for is fewer Senate-confirmed positions. Then 
disaggregating them, taking the operating ones, like the under 
secretary for management, away from the policy ones, and trying 
to create long-term continuity among them.
    One of the best things this committee could ever do for the 
Department of Homeland Security is to keep Tex Alles in the job 
of under secretary for management as the confirmed individual 
in there for a lengthy period of time. You would see huge 
improvement. So creating that as a structural option would be 
fantastic.
    Ms. Barragan. Great.
    Thank you. I yield back.
    Ms. Torres Small. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Ms. Bailey, would you clarify for the committee and for the 
American people watching the survey that we are referring to 
across the agencies of DHS, how exactly is that survey 
administered to the employees?
    Ms. Bailey. The Federal Employee Viewpoint Survey?
    Mr. Higgins. Yes.
    Ms. Bailey. It goes out by OPM to every employee who is on 
the rolls by, I think it is October 1.
    Mr. Higgins. So it is on-line?
    Ms. Bailey. It is on-line.
    Mr. Higgins. OK. Is it mandatory or voluntary?
    Ms. Bailey. It is voluntary.
    Mr. Higgins. All right. In your experiences, folks that are 
unhappy make a little more noise than folks that are happy?
    Ms. Bailey. We make a tremendous effort to make sure 
everybody fills out that Employee Viewpoint----
    Mr. Higgins. What kind of effort? Is there a great deal of 
encouragement to fill out the--you said it is voluntary.
    Ms. Bailey. Yes. So sometimes we hold contests. We do 
different things that we have leadership really support----
    Mr. Higgins. I see. So at the field level, there is a 
creative interaction----
    Ms. Bailey. Yes.
    Mr. Higgins [continuing]. Within that unit to encourage 
participation in the survey?
    Ms. Bailey. Yes, because it gives us valuable information 
that allows us to at least have a jumping-off point to----
    Mr. Higgins. OK. Thank you. I just wanted to clarify for 
all of us and for those watching that this is a voluntary 
survey, and DHS is doing its best to force it to--to permeate 
it through the entire agency.
    Ms. Bailey. Yes.
    Mr. Higgins. It is quite a challenge to get everyone to 
fill out that survey, isn't it?
    Ms. Bailey. Well, yes, it is absolutely a challenge because 
not everybody has a computer. It is not Washington, DC.
    Mr. Higgins. Thank God.
    Ms. Bailey. I can tell you, pulling a TSO off the line to 
take this can be a little bit challenging. But we have figured 
out a way to do it.
    Mr. Higgins. So let me ask your opinion about stress, Mr. 
Stier. Generally speaking, is it your experience that when an 
individual is in a period of stress they will be less satisfied 
with their job, especially if that is the cornerstone of what 
is creating the stress at their job? Would they be less 
satisfied with their job or more satisfied?
    Mr. Stier. So I am going to just offer you a quick anecdote 
why I am going to give an answer that may not be what you are 
expecting.
    When we first did the ``Best Places to Work'' rankings, the 
very first year, the Office of Management and Budget was the 
No. 1 ranked agency. It was before we made small, medium, and 
large. No. 1 overall employee engagement. They were the last on 
work-life balance.
    The reason why they were No. 1 was they were working as 
hard as possible, they were working like dogs, but they knew 
that when they did was important and they felt important.
    So I would say to you, it depends on the nature of the 
stress. This is a mission-oriented work force. They care about 
what they are doing. Sometimes stress is part and parcel of 
achieving mission, and then it is going to be OK. If it is 
stress for wrong reasons, when you don't know who your boss is 
going to be, when you don't have the information you need to do 
your job well, if you don't think you are going to get the help 
that you need, that kind of stress, not good for morale.
    Mr. Higgins. In the Department of Homeland Security some of 
the stresses we are dealing with, a complex woven web of 
challenges for the men and women, on the border dealing with 
remote areas, difficult to have opportunities for a family 
there, dealing with incredible volumes of crossings on the 
border that we have never seen before. The types of crossings, 
it certainly changed over the course of the last several years.
    I will leave you with this question, Mr. Stier, in my 
remaining time. If any reasonable person could have projected 
the kind of volumes of crossings that we are dealing with on 
the border and the totality of circumstance that DHS is dealing 
with, and if one would have presumed, say, 5 or 6 years ago, 
that the Department would still have remained not fully 
authorized by Congress, would a reasonable perspective from 5 
or 6 years ago have projected a decline in morale, a challenged 
morale within the agency, based upon what we are dealing with 
right now?
    Mr. Stier. I think it is entirely dependent upon the 
leadership.
    So I am with you on the issue of the only recommendation 
from the 9/11 Commission that hasn't been enacted is the one 
you are describing, which is Congress should create a mirror to 
the Executive branch. So entirely with you that that creates a 
lot of trouble for the Department, to have multiple oversight 
bodies. There shouldn't be. There should be one.
    But I would say to you that all the challenges you are 
describing, good leaders can manage them, and good leaders that 
are both political and career, that have continuity, because, 
again, I think it is the short-term nature of the leadership 
that is a source point of a lot of the challenge, would be able 
to manage the kinds of difficulties you are describing very 
well.
    Mr. Higgins. Excellent. Very thoughtful and insightful 
answers.
    Madam Chair, I yield, and thank you for holding this 
hearing.
    Ms. Torres Small. Thank you.
    I thank all the witnesses for their valuable testimony and 
the Members for their questions.
    Before adjourning, I ask unanimous consent to submit two 
statements for the record. The first is from the National 
Treasury Employees Union, which represents Customs and Border 
Protection officers. The second statement is from the American 
Federation of Government Employees, which represents nearly 
100,000 DHS employees.
    Without objection, so admitted.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                            January 14, 2020
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to submit 
this statement for the record. As president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) Office of 
Field Operations (OFO) employees, including CBP Officers, Agriculture 
Specialists and trade enforcement personnel stationed at 328 land, sea, 
and air ports of entry across the United States (U.S.) and 16 
Preclearance stations in Ireland, the Caribbean, Canada, and United 
Arab Emirates airports. CBP's OFO pursues a dual mission of 
safeguarding American ports, by protecting the public from dangerous 
people and materials, while enhancing the Nation's global and economic 
competitiveness by enabling legitimate trade and travel. CBP OFO 
employees are responsible for border security, including anti-
terrorism, immigration, anti-smuggling, trade compliance, and 
agriculture protection at U.S. ports of entry.
    CBP OFO employees at the ports of entry are the second-largest 
source of revenue collection for the U.S. Government. In 2018, CBP 
processed more than $2.8 trillion in imports and collected 
approximately $44 billion in duties, taxes, and other fees. Their role 
of facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP, for 
every 1,000 CBP Officers hired there is an increase in the Gross 
Domestic Product (GDP) of $2 billion; $642 million in opportunity costs 
are saved (the amount of time that a traveler could be using for 
purposes other than waiting in line, such as working or enjoying 
leisure activities); and 33,148 annual jobs are added.
    In addition, according to the Joint Economic Committee (JEC), the 
volume of commerce crossing our borders has more than tripled in the 
past 25 years. Long wait times lead to delays and travel time 
uncertainty, which can increase supply chain and transportation costs. 
According to the Department of Commerce, border delays result in losses 
to output, wages, jobs, and tax revenue due to decreases in spending by 
companies, suppliers, and consumers. JEC research finds border delays 
cost the U.S. economy between $90 million and $5.8 billion each year.
                     on-going morale issues at dhs
    Adequate staffing at CBP ports of entry is critical to our Nation's 
economic vitality. In order to attract talented applicants, however, 
Federal agencies must also recognize the importance of employee 
engagement and fair treatment in their workplace. Unfortunately, low 
morale has been a consistent challenge at DHS. For 6 consecutive years 
the Partnership for Public Service (PPS) Best Places to Work in the 
Federal Government ranked DHS last among large agencies surveyed. In 
2019, PPS ranked CBP as 380th out of 420 component agencies surveyed 
with a drop of 2.1 percent from 51.6 percent in 2018 to 49.5 percent in 
2019.
    The Best Places to Work results raise serious questions about the 
Department's ability to recruit and retain the top-notch personnel 
necessary to accomplish the critical missions that keep our country 
safe. If the agency's goal is to build a workforce that feels both 
valued and respected, these results show that the agency needs to make 
major changes in its treatment of employees. Wide-spread 
dissatisfaction with DHS management and leadership creates a morale 
problem that affects the safety of this Nation.
    Of particular concern to NTEU is the increase in suicides as the 
reported cause death of Federal employees. New data released by the 
U.S. Bureau of Labor Statistics (BLS) in the past month shows that 
Federal employee suicides are at their highest level in at least 15 
years, with suicides accounting for 28 percent of the 124 Federal 
employee job-related deaths in 2018. BLS records the event as a job-
related suicide if the suicide occurred at work or if it occurred 
elsewhere but can be definitively linked back to work. Since 2011, the 
number of self-inflicted intentional fatalities among Federal workers 
has more than doubled to 35, although the Federal workforce has 
remained approximately the same size.
    Most suicides continue to involve Federal employees in work related 
to law enforcement, such as CBP. In 2016, 15 of the 16 reported 
suicides were by Federal workers employed at a National security-
related agency. At CBP, more than 100 employees died by suicide between 
2007 and 2018, according to the agency itself. NTEU applauds CBP for 
seeking additional funding for their Employee Assistance Program (EAP). 
We also appreciate that CBP agreed to add NTEU representatives to a CBP 
workgroup that is working to address the unacceptably high rate of 
suicides among CBP personnel and develop a ``Suicide Prevention 
Strategy.'' It is vital that this workgroup continue to include rank-
and-file members' input as it develops a strategy to reduce the number 
of job-related suicides at CBP.
    NTEU also strongly supports H.R. 1433, the DHS Morale, Recognition, 
Learning and Engagement Act or the DHS MORALE Act. The MORALE Act was 
approved by the full House last year and is awaiting action by the 
Senate. The bill directs the Chief Human Capital Officer (CHCO) to 
analyze Government-wide Federal workforce satisfaction surveys to 
inform efforts to improve morale, maintain a catalogue of available 
employee development opportunities, and authorize the designation of a 
Chief Learning and Engagement Officer to assist the CHCO on employee 
development.
    H.R. 1433 also authorizes the establishment of an Employee 
Engagement Steering Committee comprised of representatives from across 
the Department, as well as individuals from employee labor 
organizations that represent DHS employees. Last, the bill authorizes 
the Secretary to establish an annual employee awards program to 
recognize non-supervisory DHS employees who have made a significant 
contribution to the Department. In our collective bargaining agreement 
with CBP, NTEU negotiated an extremely popular employee joint awards 
program. The Agency retains the discretion to determine how much of its 
budget will be allocated for awards, but 85 percent of the total awards 
budgeted are recommended by a joint union/management awards committee 
to be distributed proportionately among bargaining unit employees. NTEU 
recommends that DHS look at the negotiated CBP joint awards program as 
a model for an agency-wide program.
    While a major factor contributing to low morale at CBP is 
insufficient staffing and resources at the ports of entry, the 
provisions in the DHS MORALE Act will help to address non-staffing 
issues that affect employee morale by improving front-line employee 
engagement and establishing a statutory annual employee award program. 
NTEU commends the committee and the House for approving the DHS MORALE 
Act and urges the Senate to expeditiously do the same.
    Many of the sources of on-going employee morale issues at DHS are 
long-standing, but some are recent developments. A more recent cause is 
the lack of Senate-confirmed leaders at the top of the agency and among 
many of the components.
    Between 2003, when the agency was formed, and April 2019, there 
have been 6 Senate-confirmed DHS Secretaries. In November, the 
administration named Chad Wolf as Acting Homeland Security Secretary, 
the third person to hold the Department's top job since April. The 
agency also has no official deputy secretary, and multiple components--
including Immigration and Customs Enforcement, Customs and Border 
Protection, Federal Emergency Management Agency, and U.S. Citizenship 
and Immigration Services--lack a permanent leader. As you know, without 
Senate confirmation, agency leaders' ability to effectively carry out 
the duties of a Cabinet official and component head is compromised.
    Keeping an acting official in an important position can be 
interpreted as a signal that the administration may not care much about 
that agency or that the acting agency head does not have the 
President's full support. Morale takes a hit when senior positions go 
unfilled. Such conditions can lead to poor productivity and a weakened 
chain of command. NTEU urges Congress to insist that the administration 
stop the practice of filling DHS leadership vacancies with personnel 
operating in an ``acting'' capacity and send up nominations for 
confirmation by the Senate.
    A second source of uncertainty that undermines morale at CBP are 
the administration's workforce proposals that roll back existing civil 
service protections and benefits and Executive Orders (EOs) that 
severely disrupt labor and employee relations in the Federal workplace.
    NTEU believes in and strongly supports the Merit System Principles, 
which ensure that individuals are hired to work for the Federal 
Government based on merit, without regard to their race, age, gender, 
political views, or relationship with the hiring official. NTEU also 
fully supports the application of veteran's preference in hiring 
decisions as part of our obligation to help those who have worked so 
hard to defend our Nation and our freedom. DHS, in particular, has 
stated that it is committed to providing employment opportunities for 
our veterans and service members returning home from active duty and 
that it is the ideal employer to maximize the skills and training 
veterans have acquired while serving our country, as well as the 
commitment to serve and protect our Nation.
    At the same time, NTEU recognizes that the process used to hire new 
employees can be onerous. However, in our experience, some of the 
things that make the process onerous are the complicated extra steps 
that agencies include in their hiring process due to long-standing 
practice or fear of future litigation rather than requirements directly 
tied to the statute. For example, over the years NTEU has had 
significant concerns about the slow pace of hiring CBP Officers, some 
of which was due to concerns over how the polygraph test was being 
administered. While CBP has been making progress in reducing CBP 
Officer vacancies, they still struggle with a lack of funding to 
address on-going staffing shortfalls.
    Furthermore, despite on-going Congressional efforts to provide 
additional flexibilities to agencies to improve the hiring process and 
the time it takes to hire a new employee, agencies rarely use more than 
a few of the multiple tools available to them. It is critical that any 
effort to improve the hiring process include sustained and 
comprehensive training for all agency Human Resources (HR) 
professionals and opportunities for H.R. professionals in various 
agencies, not just the CHCOs, to meet with each other and experts at 
the Office of Personnel Management (OPM) and share best practices and 
challenges they are facing.
    Proposals to ensure that hiring managers and subject-matter experts 
are part of the hiring process from the beginning and requiring part of 
a supervisor's performance evaluation to be based on personnel 
management, recruiting, hiring, and human capital responsibilities also 
have merit and can help in reducing the time to hire.
    However, NTEU remains concerned with proposals to expand non-
competitive eligibility and hiring authorities such as that proposed in 
draft legislation that DHS provided to the Hill entitled, the 
Department of Homeland Security Enhanced Hiring Act. History has shown 
that agencies have abused such flexibility; using these programs as the 
only method of hiring, which undermined veterans' preference and civil 
service protections. Sweeping exemptions to hiring rules and 
regulations are extremely concerning as it could undermine the very 
principles that ensures that the civil service is non-partisan, based 
on merit, and reflects the citizenry it serves.
    Despite the challenges in on-boarding, changes to the hiring 
process will be of little help if the Government cannot recruit and 
retain talented individuals. Government shutdowns, unnecessary forced 
relocations and proposed agency closures, disparagement by Government 
leaders who refer to Federal employees as bureaucrats or swamp 
creatures, pay freezes, threatened cuts to employee benefits, 
elimination of key work-life balance benefits such as telework, and on-
going efforts to roll back employee collective bargaining and due 
process rights and protections all make it harder to recruit a new 
generation of civil servants and have led talented Federal employees to 
leave Federal service.
    Furthermore, recent OPM Employee Viewpoint Survey results show a 
drop in employee engagement scores, nearly 15 points below that of the 
private sector. Importantly, employee engagement is an outcome that 
depends on the actions of an organization, particularly the actions 
driven by leadership, managers, and those responsible for recruitment, 
on-boarding, and other human resources functions. The extent to which 
employees feel passionate about their jobs and are committed to the 
organization has a direct link to the ability of agencies to recruit 
and retain skilled employees, improve performance, and meet their 
missions.
                   federal employee pay and benefits
    Federal employee pay also plays a significant role in improving 
morale and the Government's ability to attract and retain top talent. 
Unfortunately, according to the President's Pay Agent, years of below-
market pay raises and pay freezes have increased the pay disparity 
between the Federal Government and the private sector to 32.71 percent, 
despite a 1990 Federal law aimed at reducing the pay gap to 5 percent. 
This has a significant impact. While many Federal employees believe in 
Government service and agency mission is often listed as the No. 1 
reason they work for the Federal Government, massive pay disparities 
with the private sector undermine morale and efforts to recruit and 
retain skilled individuals who are drawn to public service.
    While the President's fiscal year 2020 budget request called for 
another pay freeze, NTEU is pleased that the President reversed course 
and, that in the end Federal employees received an average 3.1 percent 
increase, comprised of a 2.6 percent across-the-board raise with 0.5 
percent for locality pay, in the final fiscal year 2020 funding 
agreement. Federal employees, like all other Americans, face rising 
food, utility, college, and health care costs. Adding to employees' 
concerns over pay are the administration's proposals to slow the 
frequency of within grade step increases and limit the distribution of 
awards.
    Last year, the administration also proposed plans to issue guidance 
to agencies to change the way they allocate performance awards so that 
they are given to their most critical employees with the best 
performance instead of to all employees, regardless of occupation, that 
perform outstanding work. By focusing on the ``most critical 
employees'' for pay increases, we fear that agencies will focus on 
high-demand skill sets, but ignore critical jobs needed to make 
agencies work. Employees in all jobs, at every level, are critical to 
an agency's success and by denying opportunities for awards and pay 
increases, agencies risk an increase in the number of career Federal 
employees who leave the Government and take their institutional 
knowledge with them. A pay system that limits compensation to randomly 
selected occupations will prohibit agencies from executing a whole-of-
Government approach to operations and will threaten agency performance 
and adversely impact recruiting and retention.
    It is important to note that when CBP was created in March 2003, it 
was decided that all CBP Officers and Agriculture Specialists would be 
placed under one compensation system both for base pay and for overtime 
and premium pay. The Customs Officers Pay Reform Act (COPRA) is a 
critical part of the CBP OFO pay system. Under COPRA, overtime hours 
are directed (i.e. specifically assigned) and are user fee-funded. 
COPRA has been extremely effective in ensuring that international ports 
of entry have overtime funding to staff ports during high-volume 
periods and where needed to ease wait time due to staffing shortages. 
COPRA ranks high on employee satisfaction surveys and is critical to 
employee morale at the ports of entry. NTEU would strongly oppose any 
changes to the COPRA pay system.
    The administration's fiscal year 2020 budget proposal also included 
several proposals to cut Federal employee and retiree benefits that, if 
adopted, would exacerbate the existing hiring and retention challenges. 
Once again, Federal employees were being asked to pay for unrelated 
funding decisions by paying more for their benefits while 
simultaneously reducing the value of those benefits.
    NTEU opposes proposals that would negatively impact Federal 
employee retirement benefits, including proposals to: (1) Significantly 
increase Federal Employee Retirement System (FERS) employee 
contributions by about 1 percentage point each year until they equal 
the agency contribution rate, resulting in a 6 percent pay cut for most 
employees, (2) base future Civil Service Retirement System (CSRS) and 
FERS retirement benefits on the average of the high 5 years of salary 
instead of the current high 3, thereby lowering the value of the 
benefit, (3) eliminate the FERS supplement which approximates the value 
of Social Security benefits for those who retire before age 62, 
including for those, like CBP Officers, who must retire early due to 
their law enforcement work, (4) eliminate the annual cost of living 
adjustments (COLA) for the pensions of current and future FERS retirees 
and significantly reducing the COLA for the pensions of current and 
future CSRS retirees by about 0.5 percent annually, and (5) reduce the 
G Fund interest rate under the Thrift Savings Plan (TSP), thereby 
lowering the value of this TSP option.
    The average Federal employee cannot absorb the 6 to 7 percent pay 
cut most would receive with the increased retirement contributions and 
annuitants need their COLA to keep up with the cost of living when on a 
fixed income. Federal employees are predominantly middle-class workers 
who cannot afford a retirement benefit that fails to keep up with 
inflation and will require them to work long into their senior years.
    NTEU also opposes the administration's proposal to change the 
Federal Employees Health Benefits Program (FEHBP) by significantly 
modifying the Government contribution rate by tying it to each plan's 
performance rating. For many FEHBP enrollees, this would mean that the 
Government's overall contribution rate would be lower than it is now, 
requiring enrollees to pay significantly higher premiums. Such a change 
would force employees to drop coverage or move to cheaper plans that 
provide less coverage and fail to meet the health care needs of their 
families.
    According to the 2017 OPM Federal Benefits Survey, employees 
expressed that their TSP, FERS/CSRS and FEHBP benefits were extremely 
important to them (96.1 percent, 94.2 percent and 90.6 percent of 
respondents respectively). In fact, not only is the availability of a 
retirement annuity important to employees, the benefit has been shown 
to play a key role in recruiting and retaining them.
    The FEHBP also has a significant impact on recruitment and 
retention. In 2017, 71.2 percent of survey respondents reported that 
the availability of health insurance through the FEHBP influenced their 
decision to take a Federal job to a ``moderate'' or ``great'' extent, 
while 80.9 percent of respondents reported that the availability of 
health insurance through the FEHBP influences their decision to stay 
with their job to a ``moderate'' or ``great extent.''
    Given the popularity of these critical retirement and health care 
benefits, efforts to reduce them will have a significant impact on the 
ability of the Federal Government to recruit and retain skilled workers 
at CBP and other agencies and NTEU urges Congress to oppose such 
efforts.
                federal employee rights and protections
    Another significant cause of CBP employees' concern are recent EOs 
that undermine Federal employee unions and our ability to operate in 
Federal workplaces. These EOs are currently being implemented at the 
bargaining table for agencies that are engaged in negotiations with 
their respective unions but are being challenged in the courts. Federal 
law clearly states that the right of employees to organize, bargain 
collectively, and participate through labor organizations in decisions 
which affect them safeguards the public interest and contributes to the 
effective conduct of public business. Front-line employees and their 
union representatives have ideas and information that are essential to 
improving the delivery of quality Government services to the public. 
Through the collective bargaining process and the use of pre-decisional 
involvement, employees can have meaningful input resulting in better 
quality decision making, more support for decisions, timelier 
implementation, and better results for the American people. It is 
important that these rights are maintained, and employees continue to 
have a voice in their workplace.
    However, the administration has engaged in an all-out assault on 
employee rights and protections--ignoring requirements to bargain in 
good faith, gutting collective bargaining agreements, imposing one-
sided contracts, undermining employees' rights in the grievance 
process, giving greater deference to agency management in disputes, and 
eliminating opportunities for employees to have a voice in their places 
of work. NTEU opposes all efforts to roll back the limited rights 
provided to Federal labor unions, including limits on our ability to 
represent employees to ensure they are treated fairly and have a voice 
in the workplace. Such changes eliminate opportunities for employees to 
feel engaged and comfortable working with their agency leaders, thereby 
impacting retention.
    Moreover, we oppose changes to employee due process rights, such as 
shortening the length of certain notice and response periods, limiting 
the ability of the Merit Systems Protection Board to mitigate 
penalties, and providing agencies with additional flexibility to use 
longer probationary periods, making those employees essentially at-
will. These efforts can be used to intimidate workers into silence out 
of fear of retaliation for disclosing waste, fraud, and abuse.
    Imposing anti-worker policies that eliminate fair and equitable 
treatment and instead create a culture of fear and mistrust is no way 
to attract and retain talented workers. NTEU is strongly opposed to 
these EOs and asks that Congress move to protect Federal employee 
collective bargaining rights. Recently, 24 Senators introduced S. 3146, 
legislation that mirrors provisions in the House-passed fiscal year 
2020 Financial Services and General Government Appropriations bill 
(H.R. 3351), that would prohibit agencies from implementing any 
collective bargaining agreement that was not mutually and voluntarily 
agreed to by all parties or the result of binding arbitration. NTEU 
strongly supports these efforts that would help address the 
administration's assault on collective bargaining rights and ensure 
that agencies fulfill their statutorily-mandated responsibilities to 
bargain in good faith.
    NTEU also seeks the passage of H.R. 1316, the Federal Labor-
Management Partnership Act of 2019, which would bring front-line 
employee voices and representatives back to the table at Federal 
agencies, allowing employees and management to collaborate on workplace 
solutions and improvements.
              cbp staffing shortages at the ports of entry
    Finally, on-going staffing shortages at the ports of entry continue 
to undermine morale at CBP. NTEU was pleased that the final fiscal year 
2020 funding agreement provides $104 million for 800 new CBP OFO 
positions, including 610 CBP Officer and CBP Agriculture Specialist new 
hires to help address the fiscal year 2020 on-board staffing shortage 
of 2,700 CBP Officers and 721 CBP Agriculture Specialists. NTEU 
strongly supports the funding level for CBP OFO employees in the fiscal 
year 2020 DHS final funding agreement and urges Congress to increase 
these numbers in fiscal year 2021 to address on-going staffing 
shortages at the ports of entry. According to CBP on-board staffing 
data, even with the fiscal year 2020 funding for CBP OFO new hires, 
there remains a shortage of approximately 2,000 CBP Officers at the 
ports of entry.
    Due to the on-going current staffing shortage, CBP Officers Nation-
wide are working excessive overtime to maintain basic port staffing. 
All CBP Officers are aware that overtime assignments are an aspect of 
their jobs. However, long periods of overtime hours can severely 
disrupt an officer's family life, morale, and ultimately their job 
performance protecting our Nation.
    The U.S. agriculture sector is a crucial component of the American 
economy, generating over $1 trillion in annual economic activity. CBP 
Agriculture Specialists play a vital role in both trade and travel 
safety and prevent the introduction of harmful exotic plant pests and 
foreign animal diseases, and potential ag/bioterrorism into the United 
States. Unfortunately, even with fiscal year 2020 funding for new 
hires, there remains a shortage of Agriculture Specialist at the ports 
of entry as determined by CBP's own Agriculture Specialist Resource 
Allocation Model.
    To address the shortage of Agriculture Specialists who protect our 
food supply and agricultural industries at the border, legislation has 
been introduced in both the House and Senate. S. 2107 and H.R. 4482, 
the Protecting America's Food & Agriculture Act of 2019, would ensure 
the safe and secure trade of agricultural goods across our Nation's 
borders by authorizing the annual hiring of 240 Agriculture Specialists 
and 200 Agriculture Technicians a year until the workforce shortage is 
filled. S. 2107 was recently approved by the full Senate and its 
companion bill, H.R. 4482, is awaiting House action. Because of CBP's 
mission to protect the Nation's agriculture from pests and disease, 
NTEU urges the committee to quickly consider and approve this important 
legislation.
                          nteu recommendations
    Ensuring that DHS can recruit and retain the best and brightest is 
essential for the safety and security of all Americans. In order to 
achieve the long-term goal of improving employee morale and securing 
the proper staffing at CBP, NTEU recommends that Congress take the 
following actions:
  <bullet> Support passage of H.R. 1316, the Federal Labor-Management 
        Partnership Act, which would bring front-line employee voices 
        and representatives back to the table at Federal agencies, 
        allowing employees and management to collaborate on workplace 
        solutions and improvements;
  <bullet> Support legislation and other efforts to preserve collective 
        bargaining rights for Federal employees;
  <bullet> Encourage passage of H.R. 1433, the DHS MORALE Act by the 
        Senate;
  <bullet> Support fiscal year 2021 funding for 1,200 CBP Officer, 240 
        Agriculture Specialist, and additional mission support new 
        hires at CBP OFO;
  <bullet> Approve H.R. 4482 to authorize the funding of CBP 
        Agriculture Specialist new hires up to the number specified in 
        CBP's own Agriculture Specialist Resource Allocation Model; and
  <bullet> Introduce and enact legislation to authorize the funding of 
        CBP Officer new hires up to the number specified in CBP's own 
        CBP Officer Workload Staffing Model.
    Thank you again for the opportunity to share NTEU's views on how 
DHS can build the most effective workforce, attract skilled and 
talented individuals, and engage Federal employees throughout their 
careers.
                                 ______
                                 
 Statement of the American Federation of Government Employees, AFL-CIO
                            January 14, 2020
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee, on behalf of the American Federation of Government 
Employees, AFL-CIO (AFGE), which represents more than 700,000 Federal 
and District of Columbia employees who serve the American people in 70 
different agencies, including the nearly 100,000 employees at agencies 
within the Department of Homeland Security (DHS) who protect America 
every day, we appreciate the opportunity to submit a statement for the 
record on addressing morale at DHS.
    Many of the DHS employees AFGE represents put their lives on the 
line at work every day. They also interact with the public during some 
of their most challenging and stressful moments. These factors make it 
essential that the management of DHS place a high priority on employee 
engagement and morale. And the best way to create engagement and high 
morale is to participate in effective, collaborative dispute 
resolution. The resultant improvement in morale would lead to 
excellence on the job, and a safer and more focused workforce. Every 
employee at DHS should go to work believing their employer has their 
back while they have America's back.
    Unfortunately, workforce surveys have shown annually that DHS does 
not promote good morale, and it places a low priority on employee 
satisfaction or engagement.
    While low morale and poor employee engagement plague DHS as a 
whole, there is variation among the components of the Department. Some 
agency-specific concerns are described below.
               federal emergency management agency (fema)
    FEMA employees are hired through a rigorous, competitive, merit-
based examination process that includes application of veteran's 
preference. The number of permanent full-time employees needed to carry 
out successful emergency management and preparedness cannot be short-
changed. Our employees are over-worked, under-resourced, understaffed, 
and frequently deployed to disaster zones without adequate recuperation 
time. Permanent full-time employees are outnumbered at FEMA by non-
permanent employees.
    In 1988 the Stafford Act created 2 sets of non-permanent employees 
to be hired during disasters: These include (1) Cadre of On-Call 
Recovery/Response Employees (CORE) and (2) Disaster Response Workers 
(DRW) Temporary Workers. CORE and DRW employees are brought on using an 
expedited hiring process during disasters.
    Stafford Act employees are used to supplement permanent employees, 
which too often results in vacancies for permanent full-time positions 
going unfilled for extensive periods of time. The agency keeps Stafford 
Act employees on for much longer than their 2- to 4-year contracts. 
Stafford Act employees should be deployed to disaster zones for a 
specified amount of time to respond to a specific disaster. These 
positions were not designed to work with or replace permanent full-time 
employees on non-disaster work; however, because there is such a need 
for permanent full-time employees at FEMA, it is not uncommon for 
Stafford Act employees to work outside of their job descriptions. 
Identifying permanent full-time vacancies and filling them would help 
improve FEMA emergency management and preparedness and improve morale.
              transportation security administration (tsa)
    The TSA Modernization Act, included in the Federal Aviation 
Authorization Act of 2018, required the TSA administrator to convene a 
Working Group consisting of representatives of TSA and AFGE. Its charge 
was to recommend reforms to TSA's personnel management system, 
including appeals to the Merit Systems Protection Board (MSPB). The 
union made proposals regarding discipline, grievance, fitness for duty 
and pay in an agency with virtually no workforce protections. AFGE 
representatives proposed that a representative of the union take part 
in briefings on Discipline Reform Adverse Actions recommendations. TSA 
declined this recommendation for engagement, stating that the Working 
Group was the only forum for input on this matter. When addressing 
reforms to Fitness for Duty, the union proposed an independent medical 
examination to ensure transparency. TSA simply responded that it is not 
needed. Most notably, the agency did not give consideration to access 
to MSPB or any neutral third-party review of grievances in its 
personnel management system, which was specifically required in the law 
and would greatly improve employee morale.
    Undermining morale within the TSO workforce is the fact that they 
are not governed by title 5 U.S.C., a code that applies to most of the 
Federal workforce and specifies employee and management rights and 
responsibilities, including due process and a reasonable and fair 
grievance procedure. Congress should enact Chairman Thompson's H.R. 
1140, the Rights for Transportation Security Officers Act, according 
title 5 rights to TSOs and placing them on the General Schedule (GS) 
pay system.
    Additionally, TSA drastically changed the terms of health insurance 
coverage for part-time TSOs to pro-rate the employee share of the 
premium. TSA was granted and widely uses its authority to have a large 
portion of its workforce on part-time status to maximize flexibility. 
Making the part-time TSO workforce pay much more for health care by 
increasing their share of the premium does not promote good staff 
morale or a professional workforce. This new policy should be reversed 
immediately.
           u.s. citizenship and immigration services (uscis)
    USCIS has grown at a rapid rate over the past 7 years, resulting in 
management rushing through processes and policies often directed at 
short-term crises rather than long-term management needs. Even with 
growth, the agency has a large case backlog dating back to the 1990's, 
with managers requiring employees to meet higher performance numbers by 
working through lunch and breaks. Being rushed through their workload 
leads to stress among officers who feel their charge should be National 
security, not meeting arbitrary benchmarks.
    The agency and the union are currently engaged in contract 
bargaining. Management repeatedly asserts that the 14,000 employees in 
the bargaining unit can be easily replaced and proposes arbitrary 
discipline measures up to the point of termination for even small 
infractions.
    When Acting Director Cuccinelli was appointed, one of his first 
acts was to tell Asylum Officers they were approving too many 
applications. These employees were making determinations based on their 
professional training and the law. Serving as an Asylum Officer is a 
stressful job under the best of circumstances. Being undermined by top 
management is a poor strategy that does not serve the workforce, the 
Nation's security, or the underlying values of this country. When USCIS 
Local 1924 Vice President Charles Tjersland was asked in an NPR radio 
interview whether colleagues had quit as a result of working conditions 
said, ``We're driving away some of the brightest minds, most motivated 
hearts.'' To improve employee morale, the agency should be properly 
resourced and fully authorized to carry out the provisions of the 
Immigration and Nationality Act without politically-motivated 
interference.
                        u.s. coast guard (uscg)
    Just last month, the full committee heard testimony from a Coast 
Guard officer about the race and gender discrimination and sexual 
harassment she endured. She publicly acknowledged others in the room, 
including civilian workers at USCG represented by AFGE, who reported 
similar discrimination, harassment, and retaliation. Fear of continued 
oppression and reprisal engenders the very opposite of morale in the 
workplace, and its reverberations are experienced throughout the 
agency. USCG, and the entire Department of Homeland Security should 
hold managers accountable for rooting out any sexual, gender, or racial 
discrimination and enforce a no-tolerance policy in accordance with the 
law.
                    federal protective service (fps)
    Federal Protective Service (FPS) agency staffing of uniformed, non-
supervisory law enforcement officers is lower now than it has been 
since before 9/11/2001. There are only 500 operational, uniformed, non-
supervisory Law Enforcement Officers in the field. This is not enough 
staff to effectively or safely carry out the mission of the agency. For 
example, in FPS Region 6, Western District, between 2015 and 2020 the 
number of fully-trained inspectors decreased by 75 percent from 16 to 
only 4 officers. This is not sufficient to carry out the job and risks 
the lives of officers and public safety. AFGE recommends an additional 
400 operational, uniformed, non-supervisory Law Enforcement Officers be 
hired and stationed in the field to reach a total of at least 900 
officers.
    Instead of dedicating sufficient resources to staff the agency with 
uniformed, non-supervisory personnel, many new non-uniformed, non-law 
enforcement positions have been created since 2012. FPS should hire the 
uniformed, non-supervisory law enforcement officers needed to perform 
the mission of this law enforcement agency.
    The Department of Homeland Security has serious failings in its 
management and leadership throughout its agencies, resulting in low 
employee morale. There are reports of sexual harassment complaints to 
managers; issues of low pay have not been addressed; staffing models 
need to be updated; hiring processes are inconsistent; unfair, unequal, 
and inappropriate discipline is imposed; and managers engage in 
reprisals against those who seek relief. Moreover, they reject 
opportunities for greater employee engagement.
    AFGE believes that Chairman Thompson's Department of Homeland 
Security Morale, Recognition, Learning, and Engagement Act (DHS MORALE 
Act), H.R. 1433, would take significant steps to address the issues of 
low morale faced by the Department's workforce. Most importantly, the 
promotes employee involvement, including those represented by labor 
unions, in the decisions that affect their work, and in the case of 
DHS, sometimes their very lives. We commend Chairman Thompson for 
expressly including involvement of representatives of employee labor 
unions in productive employee engagement and improvement in the 
workplace.
    AFGE hopes the committee will advance H.R. 1433 and continue in its 
crucial oversight of the management of the DHS workforce.
    Thank you for your consideration.

    Ms. Torres Small. The Members of the subcommittee may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions. Without 
objection, the committee record shall be kept open for 10 days.
    Having no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:12 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman Bennie G. Thompson for Angela Bailey
    Question 1. As noted during the hearing, there are currently 12 
senior positions vacant throughout the Department. Testimony from Mr. 
Stier indicated that acting officials filling these roles are less 
empowered to enact organizational change required to improve morale at 
DHS. Has DHS undertaken any work to identify what effect the 
pervasiveness of acting officials in leadership roles has on employee 
engagement and morale? If so, what has the Department found?
    Answer. Response was not received at the time of publication.
    Question 2. During the hearing, you were asked about low morale 
within the Management Directorate. What specific actions, if any, is 
the Department taking to address low morale within this office?
    Answer. Response was not received at the time of publication.
    Question 3a. One of my first acts of this Congress was to introduce 
the DHS Morale, Recognition, Learning, and Engagement Act (DHS MORALE 
Act). Among other things, the bill would require the Department to 
create a committee to identify and address issues affecting morale. 
During your testimony, you noted the Department had recently launched 
an Employee and Family Readiness Council to receive and address 
feedback on employee concerns.
    When was this effort launched?
    Answer. Response was not received at the time of publication.
    Question 3b. Will DHS commit to making the Council (or an entity 
like it) a more permanent fixture at the Department whether or not the 
DHS MORALE Act is signed into law?
    Answer. Response was not received at the time of publication.
    Questions From Chairwoman Xochitl Torres Small for Angela Bailey
    Question 1a. During the hearing, the committee heard testimony 
regarding some of the successes seen at at the Secret Service and 
Cybersecurity and Infrastructure Agency with respect to improvements in 
employee morale.
    Has the Department taken any action to review the recent successes 
at Secret Service or CISA? If so, what has it found?
    Answer. Response was not received at the time of publication.
    Question 1b. Does the Department have any plans to use the Secret 
Service or CISA as a model for improving morale elsewhere at the 
Department?
    Answer. Response was not received at the time of publication.
    Question 2. What is DHS Headquarters doing to monitor morale at the 
component level and drive action at the level to improve employee 
morale?
    Answer. Response was not received at the time of publication.
    Question 3. In 2018 and 2019, the Countering Weapons of Mass 
Destruction Office (CWMD) and its predecessor--the Domestic Nuclear 
Detection Office (DNDO)--ranked as the worst place to work in Federal 
Government. In 2019, CWMD had the highest response rate Government-wide 
(82.7 percent) indicating that low morale is prevalent throughout the 
agency. Previously, the morale at CWMD/DNDO had ranked in the top 
quartile of the Federal Government.
    What is being done to improve morale at CWMD?
    Answer. Response was not received at the time of publication.
         Questions From Honorable Dina Titus for Angela Bailey
    Question 1. Customs and Border Protection (CBP) ranked in the 
bottom quartile for employee satisfaction and morale (as was the case 
in 2018). In speaking to the union that represents front-line CBP 
officers across the Nation, 2 major grievances came to the forefront.
    The first is the chronic staffing shortage that CBP continues to 
grapple with. Not only is a staffing shortage detrimental to an 
airport's ability to court new air service, it is also draining for CBP 
employees who are constantly asked to perform overtime with no end in 
sight.
    The second is a lack of training for management. Officers feel that 
leadership does not entirely understand their work, tends to focus on 
the quantity of screenings rather than the quality, and possesses an 
underwhelming knowledge of how to work with the union. Workers say they 
have received multiple assurances from the top that these issues will 
be addressed, but year after year, they encounter many of the same 
issues.
    How do staffing shortages and ill-equipped managers impact morale 
and turnover at Customs and Border Protection?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Department engage CBP officers and their 
union to get feedback on what policies have positive impacts on morale?
    Answer. Response was not received at the time of publication.
      Questions From Ranking Member Mike Rogers for Angela Bailey
    Question 1. Ms. Bailey, when did DHS begin creating action plans to 
address employee engagement after the annual Federal Employee Viewpoint 
Survey (FEVS)?
    Answer. Response was not received at the time of publication.
    Question 2. Does your office assist components with their own 
component-level engagement action plans following the annual FEVS? How 
does the Department monitor components' adherence to their engagement 
action plans?
    Answer. Response was not received at the time of publication.
    Question 3. Do you have metrics in place to track progress or 
completion of employee engagement action plans for DHS-wide and 
individual components?
    Answer. Response was not received at the time of publication.
       Question From Chairman Bennie G. Thompson for Chris Currie
    Question. What benefits would the Department likely see from a 
dedicated steering committee responding to and addressing issues that 
affect employee morale?
    Answer. A dedicated Department of Homeland Security (DHS) steering 
committee that oversees issues related to employee morale will help 
ensure continued Department and component leadership commitment to 
employee morale efforts. DHS formed an Employee Engagement Steering 
Committee in 2015 that has met periodically since and as recently as in 
fiscal year 2020. Attendees at the steering committee meetings 
generally include officials from the DHS Office of the Chief Human 
Capital Officer, DHS component agencies, and at times the DHS under 
secretary for management. DHS uses this committee to guide and monitor 
implementation of DHS-wide employee engagement initiatives. In 
addition, during past meetings, the Employee Engagement Steering 
Committee has discussed the results of the Federal Employee Viewpoint 
Survey (FEVS) and DHS components' employee engagement action plans. It 
is important for DHS to maintain top leadership support and sustained 
commitment to the Employee Engagement Steering Committee to continue 
overseeing these component and DHS-wide efforts. As part of on-going 
work on DHS employee morale, GAO plans to obtain additional information 
on the role and actions of the Employee Engagement Steering Committee 
and its role in monitoring component efforts to improve morale and 
facilitate sharing best practices across the Department.
     Question From Chairwoman Xochitl Torres Small for Chris Currie
    Question. Through GAO's on-going work, what have you found with 
respect to why actions taken by the Department over the years have 
failed to have any significant or lasting impact on employee morale?
    Answer. GAO's work has identified the importance of identifying 
root causes to effectively target actions to address those causes. In 
2012, we found that DHS's Office of the Chief Human Capital Officer and 
DHS components had not consistently used 3 survey analysis techniques 
when analyzing employee survey results--comparisons of demographic 
groups, benchmarking against similar organizations, and linking root 
cause findings to action plans.\1\ In response to our recommendation, 
in January 2018, DHS and its component agencies incorporated these 3 
into their employee engagement action planning. DHS components 
continued to leverage root cause information in their 2019 employee 
engagement action plans. For example, the Transportation Security 
Administration identified the performance of managers, time constraints 
and understaffing, and lack of manager and leadership accountability 
for change as root causes of the component's engagement scores in 
recent years. Another component, U.S. Citizenship and Immigration 
Services, identified in 2019 that the areas of leadership performance, 
accountability, transparency, and training and development 
opportunities were 2018 engagement score root causes. GAO has recently 
initiated work to examine challenges that DHS and its component 
agencies face with regard to employee morale. Through this work, GAO 
plans to discuss the key drivers of employee morale at DHS as well as 
actions DHS and its component agencies have taken with respect to 
morale and any associated effect of those actions.
---------------------------------------------------------------------------
    \1\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
          Questions From Honorable Dina Titus for Chris Currie
    Question 1a. The Transportation Security Administration (TSA) ranks 
398th out of 420 Government offices and is last in employee 
satisfaction on pay. The last collective bargaining agreement (CBA) 
between TSA and the Association of Federal Government Employees (AFGE), 
which represents Transportation Security Officers, expired in December.
    How does the inability to bargain over basic things like pay, 
benefits, and grievance procedures impact TSA workers' morale?
    Answer. The Aviation and Transportation Security Act (ATSA) directs 
the TSA administrator to, among other things, establish the levels of 
compensation and other benefits for individuals employed by the Federal 
Government to carry out the agency's screening functions.\2\ In 
general, while TSA employees have never been prohibited from joining a 
union, representation for the purpose of collective bargaining was not 
permitted, and such representation did not exist, until 2011. However, 
consistent with TSA's broad authority to establish a personnel system 
that is not bound by the provisions of Title 5, United States Code, and 
other Federal personnel statutes,\3\ the TSA administrator determined 
that bargaining is not permitted on topics that might affect security, 
such as pay, pensions, and other forms of compensation, proficiency 
testing, and discipline standards, among others.\4\ Some results touted 
by the TSA employees' union include a contract that ensures 
performance-rating payouts are based on a consistent assessment system, 
expansion of the parking subsidy program at participating airports, a 
nearly-doubled uniform allowance, a provision that stops TSA from 
denying leave without an appropriate reason or as a form of discipline, 
and a provision that that allows TSA supervisors to excuse tardiness 
for up to 30 minutes, among others. How, if at all, these results 
through collective bargaining have affected TSA employee morale, and 
what impact the inability to bargain over things like pay, benefits, 
and grievance procedures is beyond the scope of the work GAO has 
performed with regard to the TSA workforce.
---------------------------------------------------------------------------
    \2\ See Pub. L. No. 107-71,  111(d), 115 Stat. 597, 620 (2001); 49 
U.S.C.  44935 note.
    \3\ 49 U.S.C.  114(n).
    \4\ Pursuant to ATSA, TSA employees are also prohibited from 
striking. See 49 U.S.C.  44935(i).
---------------------------------------------------------------------------
    Question 1b. How much does pay affect TSA employee morale?
    Answer. GAO has not published any reports specifically on TSA 
employee morale; however, information from other Government findings 
suggest pay has played an important role in TSA employee satisfaction. 
First, the Office of Personnel Management's Federal Employee Viewpoint 
Survey (FEVS) asks respondents how satisfied they are with their pay. 
In 2019, about half of TSA employees (53 percent) who responded to the 
FEVS reported that they were unsatisfied with their pay, compared to 
about 1 in 5 Federal Government employees (20 percent).\5\ Second, In 
March 2019, the Department of Homeland Security Office of the Inspector 
General reported on TSA's employee retention efforts and found that 
complaints about base pay, pay raises, bonuses, or the fairness of pay 
compared with the work performed were among the most common responses 
given by both full- and part-time transportation security officers 
(TSO)--i.e., TSA-employed screening personnel--completing a voluntary 
exit survey when they left the agency in fiscal years 2012-2017.\6\ 
Third, a May 2019 evaluation report of a Blue-Ribbon Panel on TSA's 
human capital service delivery found TSO pay is a key issue for the 
screening workforce, based on analysis of fiscal year 2018 exit survey 
responses and focus group discussion. According to the study, TSOs work 
long hours, have difficult working conditions, and their pay in some 
locations lags behind industry counterparts. Moreover, the panel found 
that TSO turnover in the first 3 years of employment--which may 
indicate low morale--is high, consistent with other low-wage jobs in 
the private sector with similar skill requirements.\7\
---------------------------------------------------------------------------
    \5\ Office Personnel Management, Federal Employee Viewpoint Survey 
(2019).
    \6\ Department of Homeland Security Office of the Inspector 
General, TSA Needs to Improve Efforts to Retain, Hire, and Train its 
Transportation Security Officers, OIG-19-35 (Washington, DC: March 28, 
2019).
    \7\ ICF Incorporated, LLC, Final Findings and Recommendations, Blue 
Ribbon Panel for the Transportation Security Administration, Human 
Capital Service Delivery Evaluation (Fairfax, VA: May 2019).
---------------------------------------------------------------------------
    Question 1c. Will raising pay alone address TSA's workplace morale 
challenges? What other action should TSA and DHS leadership be taking?
    Answer. Although GAO has not published work on TSA workplace morale 
challenges, our previous work on employee morale across the Federal 
Government, data from FEVS, and TSA's Blue Ribbon panel study suggest 
that pay is not the only factor that contributes to morale. As we 
stated in our recent testimony on DHS employee morale, key drivers of 
employee morale across the Government include holding constructive 
performance conversations, career development and training 
opportunities, work-life balance, an inclusive work environment, 
employee involvement, and communication from management.\8\ According 
to fiscal year 2019 data from FEVS, many TSA employees are unsatisfied 
with career development opportunities. For example, 51 percent of TSA 
respondents reported they did not believe that promotions in their work 
unit were based on merit, and 42 percent reported they were unsatisfied 
with their opportunity to get a better job in the agency. Similarly, in 
its May 2019 evaluation, the Blue-Ribbon Panel on TSA's human capital 
service delivery reported that if pay problems were reduced, other 
issues would continue to affect morale. As a result, the Panel made 
recommendations to TSA in a number of areas, including some related to 
career development, such as recommendations to make changes to leader 
selection and development and the promotion process. According to TSA's 
2019 employee engagement action plan, TSA identified 3 root causes that 
create or exacerbate challenges to employee morale or satisfaction, 
based on focus groups: (1) Performance of mid-level managers related to 
issues such as fairness, recognition, and professional development; (2) 
constraints on time and other resources needed to complete tasks; and 
(3) lack of accountability for enforcing desired changes. As of October 
2019, TSA has taken some actions designed to address these root causes. 
For example, TSA developed a supervisory training to improve 
performance feedback conversations and developed a coaching pilot to 
include training and coaching for leadership.
---------------------------------------------------------------------------
    \8\ GAO, Department of Homeland Security: Employee Morale Survey 
Scores Highlight Progress and Continued Challenges, GAO-20-349T 
(Washington, DC: Jan. 14, 2020).
---------------------------------------------------------------------------
        Question From Chairman Bennie G. Thompson for Max Stier
    Question. What benefits would the Department likely see from a 
dedicated steering committee responding to and addressing issues that 
affect employee morale?
    Answer. Response was not received at the time of publication.
           Questions From Honorable Dina Titus for Max Stier
    Question 1. Customs and Border Protection (CBP) ranked in the 
bottom quartile for employee satisfaction and morale (as was the case 
in 2018). In speaking to the union that represents front-line CBP 
Officers across the Nation, 2 major grievances came to the forefront.
    The first is the chronic staffing shortage that CBP continues to 
grapple with. Not only is a staffing shortage detrimental to an 
airport's ability to court new air service, it is also draining for CBP 
employees who are constantly asked to perform overtime with no end in 
sight.
    The second is a lack of training for management. Officers feel that 
leadership does not entirely understand their work, tends to focus on 
the quantity of screenings rather than the quality, and possesses an 
underwhelming knowledge of how to work with the union. Workers say they 
have received multiple assurances from the top that these issues will 
be addressed, but year after year, they encounter many of the same 
issues.
    How do staffing shortages and ill-equipped managers impact morale 
and turnover at Customs and Border Protection?
    Answer. Response was not received at the time of publication.
    Question 2. The Transportation Security Administration (TSA) ranks 
398th out of 420 Government offices and is last in employee 
satisfaction on pay. The last collective bargaining agreement (CBA) 
between TSA and the Association of Federal Government Employees (AFGE), 
which represents Transportation Security Officers, expired in December.
    How does the inability to bargain over basic things like pay, 
benefits, and grievance procedures impact TSA workers' morale?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
